<html>
<title> - EMERGENCY PREPAREDNESS IN THE NATION'S CAPITAL</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
             EMERGENCY PREPAREDNESS IN THE NATION'S CAPITAL
=======================================================================



                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2002

                               __________

                           Serial No. 107-179

                               __________

       Printed for the use of the Committee on Government Reform









  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                             _______


                       U. S. GOVERNMENT PRINTING OFFICE
85-727                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
CHRISTOPHER SHAYS, Connecticut       DIANE E. WATSON, California
                                     STEPHEN F. LYNCH, Massachusetts

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
                      Heea Vazirani-Fales, Counsel
                Shalley Kim, Legislative Assistant/Clerk
                      Jon Bouker, Minority Counsel














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2002...............................     1
Statement of:
    Gainer, Terrance W., Chief, U.S. Capitol Police; Peter G. 
      LaPorte, director, District of Columbia Emergency 
      Management Agency; Donald L. Keldsen, acting director, 
      Maryland Emergency Management Agency; George Foresman, 
      deputy assistant to the Governor for Commonwealth 
      Preparedness, accompanied by Lieutenant Governor John 
      Hager, Commonwealth of Virginia; John R. D'Araujo, Jr., 
      Assistant Director, Response & Recovery Directorate, 
      Federal Emergency Management Agency; Bruce Williams, 
      chairman, Metropolitan Washington Council of Governments; 
      George Vradenburg, cochair, Emergency Preparedness Task 
      Force of the Potomac Conference, Greater Washington Board 
      of Trade; Richard A. White, chief executive officer, 
      Washington Metropolitan Area Transit Authority; John V. 
      Cogbill III, chairman, National Capital Planning 
      Commission; and Scott Hatch, Director of Communications, 
      Office of Personnel Management.............................    17
Letters, statements, etc., submitted for the record by:
    Cogbill, John V., III, chairman, National Capital Planning 
      Commission, prepared statement of..........................    98
    D'Araujo, John R., Jr., Assistant Director, Response & 
      Recovery Directorate, Federal Emergency Management Agency, 
      prepared statement of......................................    46
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    14
    Foresman, George, deputy assistant to the Governor for 
      Commonwealth Preparedness, prepared statement of...........    40
    Gainer, Terrance W., Chief, U.S. Capitol Police, prepared 
      statement of...............................................    20
    Hatch, Scott, Director of Communications, Office of Personnel 
      Management, prepared statement of..........................   103
    Keldsen, Donald L., acting director, Maryland Emergency 
      Management Agency, prepared statement of...................    34
    LaPorte, Peter G., director, District of Columbia Emergency 
      Management Agency, prepared statement of...................    27
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland:
        Prepared statement of....................................     6
        Prepared statement of Carol Schwartz.....................     3
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................    10
    Vradenburg, George, cochair, Emergency Preparedness Task 
      Force of the Potomac Conference, Greater Washington Board 
      of Trade, prepared statement of............................    64
    White, Richard A., chief executive officer, Washington 
      Metropolitan Area Transit Authority, prepared statement of.    71
    Williams, Bruce, chairman, Metropolitan Washington Council of 
      Governments, prepared statement of.........................    54
















             EMERGENCY PREPAREDNESS IN THE NATION'S CAPITAL

                              ----------                              


                       FRIDAY, SEPTEMBER 20, 2002

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 2154, Rayburn House Office Building, Hon. Constance A. 
Morella (chairwoman of the subcommittee) presiding.
    Present: Representatives Morella, Tom Davis of Virginia, 
Norton and Watson.
    Staff present: Russell Smith, staff director: Heea 
Vazirani-Fales, counsel; Robert White, communications director, 
Shalley Kim, legislative assistant/clerk; Jon Bouker, minority 
counsel; and Jean Gosa, minority assistant clerk.
    Mrs. Morella. I am going to call to order the Subcommittee 
of the District of Columbia, Government Reform Committee, for 
our hearing on ``Emergency Preparedness in the Nation's 
Capital.''
    A few weeks after the terrorist attacks of last September 
11th, this subcommittee held its first hearing on emergency 
preparedness in the Nation's Capital. The news then was not 
good. Although our first responders, the firefighters, police, 
and emergency medical technicians, did wonderful work, there 
was widespread acknowledgment that the regional response, in 
terms of coordinating the evacuation of employees and 
communicating with the general public, was sorely lacking.
    To review: The Emergency Broadcasting System, which is 
designed for this type of emergency, was not put to use. People 
believed the Metro system was shut down when, in fact, it was 
operational. Federal and local government employees and many 
private sector workers were let out of their jobs starting at 
around 10 a.m., about the same time that at least one of the 
major Potomac River crossings was shut down, creating even more 
traffic chaos.
    At the time of last year's hearing I said, ``Washington 
must be the most prepared city, and region, in the event of a 
terrorist attack or other emergency.'' So, one of our hopes 
today is to determine how far we progressed toward that goal.
    Is the Nation's Capital now the best-prepared city? And is 
the National Capital Region the best-prepared region? In the 
event of another catastrophic emergency, would the Federal 
Government and local governments communicate well with each 
other? Would our residents, businesses, and tourists receive 
quick notification of what to do and what not to do?
    As you all know, we now have a nationwide color-coded 
terror alert warning system, and we are currently in Code 
Orange, and we have been for a week and a half. I know there is 
concern among the general public over what these color warnings 
translate to. Does Orange mean that you should work from home 
on that day? Does Red mean we should pull the kids out of 
school? We don't have the answers.
    We do have a large and noteworthy panel of local, State, 
regional, Federal, and private sector leaders here today. And I 
appreciate you all coming, and we hope that you will be able to 
help us answer these questions. It is unusual, to say the 
least, for us to have 10 witnesses in one large panel, but this 
was done for a reason.
    One of the lessons that we learned on September 11th is the 
difficulty of communicating among different levels of 
government, between government and private sector, between law 
enforcement and transportation. So now we have all of these 
elements at the same table, or at least at the same tables but 
we have done it with one table. And I think will help us to 
knock down some of those communication barriers.
    I am asking the panel to indulge the subcommittee and to 
keep your opening statements to about 3 minutes so that we can 
have an opportunity to ask questions. Please know that your 
total testimony, verbatim, will be included in the record. And 
we will get things moving a little bit quicker.
    A great deal of our discussion today will center on the 
various plans that have been developed in the wake of the 
September 11th attacks. The Council of Governments has a 
Regional Emergency Coordination Plan for the region. And I will 
note that in addition to the testimony of Takoma Park 
Councilman Bruce Williams, I am going to enter into the record 
testimony from D.C. Councilwoman Carol Schwartz, who heads 
COG's Emergency Preparedness Task Force, but could not be with 
us today.
    [The prepared statement of Ms. Schwartz follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mrs. Morella. The Governors of Maryland and Virginia and 
the mayor of the District of Columbia held a summit and signed 
a joint statement pledging cooperation on many emergency 
preparedness and security issues. The Federal Emergency 
Management Agency has told us that it is working on a regional 
response plan, and the Office of Personnel Management has 
developed a framework for notifying Federal employees about 
emergency situations.
    So we have no shortage of plans. The mere existence, 
however, of these plans, which represent real progress--much 
thought and hard work has gone into their creation, but we have 
to make sure that these plans are coordinated as much as 
possible, and we have to make sure that these plans are tested 
so that we are confident that they will work in an emergency.
    One reason for the effectiveness of our first responders on 
September 11th is that they routinely participate in mutual aid 
drills where they learn to work together and put into practice 
the plans that exist on paper. There must be similar efforts in 
terms of our emergency readiness proposals.
    In looking at these plans, I also want to get feedback from 
the panel on legislation that was introduced by Senator 
Sarbanes to amend the proposed Homeland Security Act. His bill 
would create an office within the new Homeland Security Agency 
to oversee and coordinate the various Federal counterterrorism 
and preparedness programs in the National Capital Region. I 
endorse the concept of this legislation. I think we have come 
to the point where we need someone high in the Federal 
Government who is solely responsible for coordination of 
Federal responses within the National Capital Region. And I am 
very interested to hear our witnesses' thoughts on that 
proposal.
    Another important factor that we must not forget is the 
role of the private sector. There are about 350,000 Federal 
workers in the National Capital Region, but there are another 
2.4 million private sector employees. About 80 percent of the 
region's critical infrastructure, power plants, water 
distribution, and communications providers lies in the hands of 
businesses, not the government.
    Our government, Federal, State, local, regional, must have 
a way to effectively communicate with our businesses and their 
workers in times of emergency, as well as to involve them in 
the decisionmaking progress and process. And true emergency 
preparedness demands that everyone--business, government, the 
general public--is in the loop.
    And so I now, after that opening statement, will yield to 
my ranking member, the distinguished Congresswoman, Ms. Norton.
    [The prepared statement of Hon. Constance A. Morella 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Norton. Thank you very much, Madam Chair. And thank you 
for calling this hearing in a timely fashion, 1 year after the 
first attack.
    Two weeks ago, I traveled to New York to the site of the 
first Congress and the Nation's first capitol for a 
commemorative joint meeting of Congress. Members of the House 
and the Senate visited Ground Zero and participated in a unique 
and moving ceremony. At the same time, I was struck by how 
contained the area of the Twin Towers devastation appeared and 
how normal the rest of New York was.
    In contrast, the District of Columbia was not directly hit, 
but there are telltale footprints of September 11th throughout 
downtown Washington. Today, we want to learn just what we have 
learned and what lies beneath the outward and visible signs of 
September the 11th and the anthrax tragedy that took the lives 
of two dedicated postal workers on October 21st and 22nd.
    It would be difficult to overestimate the complexity of the 
District's post-September 11th challenge and similar challenges 
faced by the region. The city must meet its primary obligation 
to protect almost 600,000 local residents. The city must secure 
the seat of government and the entire Federal presence. The 
city must collaborate with a large number of Federal, county, 
and State authorities and police agencies to whom the District 
is now tied, and must link itself in entirely new ways.
    As the Joint House and Senate Intelligence Committee 
hearings that began this week are demonstrating, neither the 
Federal Government nor any part of our Federal system of 
governance was prepared in any way for either September 11th or 
the anthrax attack. The shocking irrationality and brutality of 
the unprecedented attacks left governments scrambling to afford 
greater security. The District was still recovering from the 
most serious financial crisis in a century and had just begun 
to rebuild protective and emergency services sufficient to 
protect its own residents, not to mention the Federal complex 
and the 370,000 Federal employees who work here and in the 
region.
    After some prodding, the Appropriations Committee realized 
that the ball was in its court and that the District is the 
only first responder of any significant size here, because it 
is the only big city in the region. Congress appropriated $156 
million for the District and $39 million for Metro in the D.C. 
appropriation. The total for the region as a whole appropriated 
by the Congress has been $432 million.
    It was clear that the September 11th attack on the civilian 
population necessitated immediate action without a period of 
careful planning. The new money was necessary just to supply 
the basics, particularly gear and basic equipment for frontline 
workers in case of another attack. The past year, therefore, is 
best understood as an emergency response year where the least 
difficult, most obvious, and most pressing needs were tackled.
    No one pretends that there has been time to move from the 
raw basics to where we must go, to a seamless prevention and 
response capability, first in the city and then in the region 
covering 17 different jurisdictions. Until now, the region has 
depended almost entirely on the Council of Governments, or COG, 
for regional coordination. COG received $5 million in the 
fiscal year 2002 Defense supplemental appropriation, and under 
the able leadership of Executive Director Michael Rogers has 
facilitated communication and coordination, even though COG has 
no enforcement authority. COG will continue to play an 
indispensable role. However, I have been working in the 
Congress to afford even greater capability for the region, and 
each jurisdiction in the region must do the same within its own 
jurisdiction, and jointly.
    On Wednesday, for example, the Senate passed an amendment 
to the pending Homeland Security Act that includes and extends 
a provision I added in the House requiring the Homeland 
Secretary to work directly with the mayor of the District of 
Columbia on security matters. The Senate provision adds the 
Governors of Maryland and Virginia, and establishes an office 
and a director for the National Capital Region. That office 
will coordinate, plan, and execute activities to enhance 
emergency preparedness.
    This new capability, tied directly to the Homeland 
Secretary, appropriately recognizes that this city and region 
contain virtually our entire government, including the White 
House, the Congress, the Supreme Court, and 370,000 Federal 
employees; and that special focused attention is required if we 
are serious about the unique demands for security in the 
National Capital Region. This provision is an example of the 
new multijurisdictional coherence that should be the lodestar 
as we strive to create mechanisms equal to the threats we face.
    Even with all that must be done, what has been done 
persuades me that the District of Columbia is the most secure 
city in the world today. Nevertheless, the emergency 
preparedness actions of the Federal Government often have been 
clumsy, ineffective, excessive, and insensitive. Our residents 
do not walk the city in fear. What they do fear is that in 
great haste and with little experience, authorities will be too 
quick to close down the city and too slow to assure that the 
District remains the world's symbol of an open society. Today, 
I will be listening to hear whether we are learning to meet the 
two great challenges of security and openness at the same time, 
without sacrificing one for the other and without stealing the 
gloss from our shining city on the hill.
    Thank you very much, Madam Chair.
    Mrs. Morella. Thank you, Congresswoman Norton.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mrs. Morella. I am now very pleased to recognize our 
colleague from Virginia, Tom Davis, who is my predecessor, who 
has chaired this subcommittee.
    Mr. Davis.
    Mr. Davis of Virginia. Thank you, Madam Chairman. And I 
want to thank you for organizing today's followup hearing on 
the progress of emergency preparedness in the District of 
Columbia.
    I want to note, we have George Foresman from the 
Commonwealth of Virginia here, and with him is our former 
lieutenant Governor and now a member of our Governor's cabinet 
who works--when it comes to homeland security and State 
security, work in a bipartisan fashion in Virginia, John Hager. 
And it is good to see you here as well.
    Over the past year, our National Capital Region and 
jurisdictions around the country have been working to bolster 
their emergency response plans. In the midst of crisis, the 
District must be prepared to handle concerns common to other 
major metropolitan areas. This includes ensuring the health and 
safety of residents, employees, and visitors, implementing a 
coordinated emergency management plan, conducting quick and 
safe evacuations, and coordinating with local jurisdictions.
    However, Washington's crisis response capability is often 
complicated by the needs of the Federal Government. Because of 
the District's unique status as the Nation's Capital, a 
multitude of local, State, and Federal Governments and agencies 
must coordinate their efforts to effectively respond to 
emergencies. For example, Federal agencies have the authority 
to close streets which may impact evacuation procedures. Local 
officials have to scramble to reallocate personnel and other 
resources in order to successfully accommodate Federal agencies 
while safely evacuating citizens.
    I understand that coordinating State, local, and Federal 
Governments and a host of public health and law enforcement 
organizations is a mammoth task. However, I do have some 
concerns that I hope witnesses can address.
    The Metropolitan Washington Council of Governments 
developed a regional emergency coordination plan to facilitate 
communication and coordination among the local jurisdictions. 
The plan released last week contains many solid recommendations 
and clearly represents many hours of diligent work, but 
questions remain.
    As the Northern Virginia Transportation Alliance noted on 
Wednesday in testimony before the National Capital Region 
Transportation Planning Board: ``in focusing almost exclusively 
on change of command, procedures, play books, and technology, 
COG's plan is devoid of substantial recommendations regarding 
the fundamental issue of lack of system capacity and 
reliability.'' The question for today's panel is, why is there 
not yet a list of key infrastructure improvements necessary to 
respond to future disasters?
    Since this plan has not yet been incorporated into an 
emergency response plan, our COG is considering alternate 
procedures. Additionally, it is my understanding that the 
current Federal Emergency Decision and Notification Protocol, 
which outlines the procedures for closing Federal agencies, 
does not integrate the Homeland Security Advisory System into 
its process. I am concerned that this could lead to 
inconsistencies and the closure of Federal agencies, and can 
jeopardize the welfare of the Federal employees.
    The Senate has approved amendments to its version of the 
Homeland Security Department legislation that would create an 
office for National Capital Region coordination, in essence, 
creating a Federal homeland security director for the D.C. 
region. I understand the rationale for this move. Just as 
private sector companies with technology to aid in homeland 
defense have had difficulty determining where to turn for an 
audience and for answers in the Federal Government, so too are 
regional governments, organizations, and transit operators 
grappling with a wide array of different players with different 
levels of authority. I am certain, too, that COG, WMATA and 
others are eager to find a direct route to work within the 
administration on the annual budget process.
    I am eager to hear about the pros and cons of this 
approach, including panelists' thoughts on whether the Senate 
language simply adds another layer of bureaucracy that will 
slow down, rather than streamline, regional preparedness 
efforts.
    Madam Chairman, last month's Security Summit, organized by 
the Office of Homeland Security, brought together State, 
Federal agencies, and the private sector. Virginia, Maryland, 
and the District agreed to use the Emergency Management 
Assistance Compact to share personnel resources in emergencies 
and to work toward a variety of security objectives.
    I commend the participants for their effort. I am confident 
that local jurisdictions and governments can work together to 
create an emergency preparedness plan that corrects the present 
deficiencies and is flexible enough to respond to a wide array 
of crises.
    Thank you.
    Mrs. Morella. Thank you, Mr. Davis.
    [The prepared statement of Hon. Thomas M. Davis follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Morella. And now, in conjunction with the policy of 
this subcommittee and the full committee, I will ask those who 
are testifying if you would stand and raise your right hand so 
I can swear you in.
    [Witnesses sworn.]
    Mrs. Morella. Thank you. The report will designate an 
affirmative response by all.
    Our first witness will be Terrance Gainer, the Chief of 
Police, U.S. Capitol Police.
    Chief Gainer, I know that you are going to be leaving after 
you present your testimony, so that you can participate in the 
11 o'clock graduation ceremony of 44 police officers at the 
Dirksen Building.
    So I will start off with you, Mr. Gainer. Thank you.

 STATEMENTS OF TERRANCE W. GAINER, CHIEF, U.S. CAPITOL POLICE; 
  PETER G. LaPORTE, DIRECTOR, DISTRICT OF COLUMBIA EMERGENCY 
MANAGEMENT AGENCY; DONALD L. KELDSEN, ACTING DIRECTOR, MARYLAND 
EMERGENCY MANAGEMENT AGENCY; GEORGE FORESMAN, DEPUTY ASSISTANT 
 TO THE GOVERNOR FOR COMMONWEALTH PREPAREDNESS, ACCOMPANIED BY 
LIEUTENANT GOVERNOR JOHN HAGER, COMMONWEALTH OF VIRGINIA; JOHN 
   R. D'ARAUJO, JR., ASSISTANT DIRECTOR, RESPONSE & RECOVERY 
    DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT AGENCY; BRUCE 
    WILLIAMS, CHAIRMAN, METROPOLITAN WASHINGTON COUNCIL OF 
GOVERNMENTS; GEORGE VRADENBURG, COCHAIR, EMERGENCY PREPAREDNESS 
TASK FORCE OF THE POTOMAC CONFERENCE, GREATER WASHINGTON BOARD 
OF TRADE; RICHARD A. WHITE, CHIEF EXECUTIVE OFFICER, WASHINGTON 
   METROPOLITAN AREA TRANSIT AUTHORITY; JOHN V. COGBILL III, 
   CHAIRMAN, NATIONAL CAPITAL PLANNING COMMISSION; AND SCOTT 
    HATCH, DIRECTOR OF COMMUNICATIONS, OFFICE OF PERSONNEL 
                           MANAGEMENT

    Chief Gainer. Thank you very much, Madam Chairwoman, and 
members of the committee. I am pleased to appear before you 
today to discuss the emergency preparedness in our Nation's 
Capital, and I appreciate the help that Congress has given my 
agency to better prepare itself.
    I think I am in somewhat of a unique position, because just 
3 months ago I was the Executive Assistant Chief of the 
Metropolitan Police Department and sat on the opposite side of 
the table during many of the discussions that were going on 
between the city and the capital complex area. But we all know 
that no single event in the history of Washington tested the 
area's emergency preparedness and interagency cooperation more 
than the terrorist attacks of September 11, 2001. Likewise, the 
October 15th anthrax attack once again necessitated public 
safety and public health agencies to formulate a plan to 
address the myriad of issues posed by that act of terrorism.
    Each agency has emergency response plans which will guide 
their individual operations; however, it is clear that no 
single agency in the Washington metropolitan area has the 
personnel and resources to unilaterally handle a terrorist or a 
critical incident.
    I am pleased the Metropolitan Washington Council of 
Governments took a leadership role and developed a task force 
on homeland security and emergency preparedness for the 
National Capital Region in order to help coordinate and 
optimize resources in the event of a critical incident. As a 
result of their work, the U.S. Capitol Police and other public 
and private sector stakeholders will partner in the Regional 
Emergency Coordination Plan and the Regional Incident 
Communication and Coordination System.
    We have also learned that the actions taken by one agency 
to meet their public safety responsibilities may adversely 
affect the operations of another agency. A clear example is the 
issue of street closures. There sometimes are legitimate needs 
to close streets or restrict traffic within the Capitol Complex 
during emergency situations or due to security concerns. 
However, we understand that such actions place a burden on the 
Metropolitan Police Department and other city agencies, as well 
as the citizens, especially when Constitution and Independence 
Avenues are affected.
    That is why we closely coordinate with the City and other 
agencies when we must close our streets or alter traffic flow 
within the Capitol Complex. And I can say, I think the last 
thing that Mayor Williams said to me as I left that city agency 
and the first thing that the Congresswoman Norton said to me is 
as I approached this new job, was: Don't dare close those 
streets without strong communication between the city and the 
Capitol Complex community. In fact, in response to that, the 
U.S. Capitol Police, the Metropolitan Police, and the District 
Department of Transportation have recently formed two groups 
which will coordinate security projects or programs that may 
impact the city's ability to manage vehicular traffic.
    An Executive Leadership Steering Committee, consisting of 
Mr. Dan Tangherlini, Director of the District Department of 
Transportation; Chief Charles Ramsey of the Metropolitan Police 
Department, and myself will meet periodically to address new 
and current issues.
    The second group is the Traffic Flow Committee composed of 
senior representatives of those three agencies. These two 
groups will ensure that there is a close coordination between 
our agencies and to resolve any issues raised by security 
projects or programs prior to their implementation.
    The U.S. Capitol Police has also taken specific actions to 
increase our response and mitigation capabilities, such as 
purchasing new emergency equipment and specialized vehicles, 
increasing the number of sworn personnel--which will grow by 44 
in just 45 minutes--implementing a comprehensive training 
program, and developing a chemical biological strike team that 
will be rivaled by none in the United States. We also 
participate in regional multiagency emergency response training 
exercises, one of which was held by Mr. LaPorte just last week, 
which are very critical to our joint preparedness.
    I believe it is no longer a question of if another 
terrorist attack will occur; regrettably, it is now a question 
of when, where, and in what form. We must learn the difficult 
lessons from prior incidents, and pledge to increase our 
vigilance and preparedness. In order to be successful in our 
efforts, the leaders of all public safety agencies in the 
National Capital Area must support and adhere to three guiding 
principles--coordination, coordination, and communication--
cooperation among all public safety and public service agencies 
across all Federal, State, and local boundaries with regard to 
consequent management and resource sharing; coordination of 
emergency response plans and emergency response actions; and 
communication of incident information, planned actions, and 
requests for assistance all are key to effective preparedness 
and response.
    A major goal of the U.S. Capitol Police is to carefully 
balance our security requirements with reasonable access to 
this area while maintaining the historic vista of this Capitol 
Campus. The U.S. Capitol Police has made significant strides 
since last year's heartless attacks, and we are now better 
prepared for any such future incidents. We will continue to 
work closely with Congress, the Council of Governments, our 
public safety partners, and private stakeholders to improve the 
security, the safety, and preparedness of our Nation's Capital.
    Thank you.
    [The prepared statement of Chief Gainer follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Morella. Thank you very much, Chief Gainer.
    I know you have got to leave, but I am going to allow Ms. 
Norton ask you one question; then any other questions, we will 
submit to you in writing for your response.
    Chief Gainer. Thank you very much for accommodating that 
graduation of ours.
    Ms. Norton. I appreciate the chairwoman's indulgence.
    I want to thank you, Chief Gainer, for the improved 
communication in advance of changes in our streets. For 
example, when these new barriers were put up, or the barriers 
that are now in the ground and can go up on Constitution and 
Independence, apparently key people in the District of Columbia 
didn't know. I must tell you, I didn't know. And the press 
came--went crazy because they didn't know. And, therefore, I 
would like to make a suggestion.
    In addition, the community also didn't know, and so all 
kinds of calls came in. Are they trying to keep us from getting 
out of town in case something happens?
    The lesson to be learned from that is, it is not enough to 
tell the administrator or somebody in DMV, or whoever it is, 
when--particularly given the nature of this city and the people 
who live here. When they see things happening and don't know 
about it and the press hasn't been informed, the press assumes 
the worst, because they want a story. So I am going to ask you 
in advance of any changes of that kind not only to notify the 
District of Columbia, but to notify this subcommittee, the 
chairman and me.
    Chief Gainer. Yes, ma'am.
    Ms. Norton. I am going to ask you also if you would simply 
go before the press yourself and explain to the press, and 
thereby inform the public, what is happening so that we don't 
get conspiracy theories and we don't get people's backs up. 
Already, we see improved communication with the District 
government; now the public believes it has a right to know.
    I am asking you if you would get back to me on precisely 
how the extended jurisdiction of my bill from 1993 is being 
carried out now.
    And finally, let me ask you a question about the IMF. I am 
very pleased with how you are working with the District of 
Columbia. Your men are going to be on the front line. You have 
been working hand in glove with the District Police. When I 
called Mr. Livingood, our Sergeant at Arms, about perhaps 
sending a Dear Colleague to inform staff and Members that they 
might want to take public transportation, I found out that he 
was way ahead of me.
    I do want to ask you this. We have noted, the Chief has 
called me concerning what appears to be an attempt to up the 
ante. These people are going to try to close down the District. 
They have always, of course, foment all kinds of trouble around 
the place, but they are now talking about closing down choke 
points such as the circles around the city, such as the 
highways where you get in and out of the city. They are talking 
about smashing the windows of downtown office buildings, even 
of places like McDonald's.
    I have every confidence in you and in our own D.C. police 
to be where you need to be in order to take care of these 
things, but I have to ask you, particularly given the desire of 
some of these people to keep people from moving in and out of 
the city, whether or not--given the emergency procedures that 
we have adopted after September 11th, whether or not this 
complicates dealing with demonstrations, peaceful or not, that 
come into the city and how--how you find it different, if you 
find it different at all, to deal with such demonstrations in 
the face of the need to keep the city open whether for 
ambulances, which is always the case, but now even for 
emergency preparedness.
    Chief Gainer. Yes. Thank you.
    With the events that will transpire, starting a week from 
today, in conjunction with the threat level that the 
metropolitan area is at, there are additional risks. We are 
uncertain, although we have no specific information, whether 
terrorists could use this type of disruption--these mostly 
peaceful protests, along with the hooligans--to their 
advantage. And to the extent the protest organizers are 
indicating they are going to shut down the city, particularly 
on Friday, I think it is a particularly dangerous situation 
that we could find ourselves.
    However, that having been said, Chief Ramsey and the 
Metropolitan Police Department in conjunction with not only the 
surrounding law enforcement agencies, but agencies as far as 
away as Macon, Georgia, or Chicago, in addition to Maryland, 
Pennsylvania, and Virginia, are sending sufficient forces that 
we think that we will be well positioned to try to mitigate any 
of the disruption. But it does make it tougher. And I think 
that the chiefs and Deputy Mayor Kellum's suggestion that we 
use public transportation and minimize car use, listen to the 
police and press reports about where and what could happen will 
be essential to making this easier.
    We have also sat down with the U.S. Attorney and Main 
Justice to talk about whether these types of activities are so 
deleterious to the security efforts that we ought to take very 
proactive actions, whether there are violations of law that are 
so potentially egregious that they outweigh the First Amendment 
rights of someone to come in and speak what they want and shut 
down our intersections.
    So we are trying to balance those two things.
    Mrs. Norton. Thank you, Chief.
    I just want to say, I am pleased that after some 
discussions with the White House, we were able to get money to 
pay the police who are coming from other jurisdictions.
    Thank you, Madam Chair.
    Mrs. Morella. Thank you, Ms. Norton. And thank you, Chief 
Gainer. We look forward to working with you and watching what 
happens next week, too. Thank you very much.
    Chief Gainer. Thank you for your leadership, ma'am.
    Mrs. Morella. Thank you.
    I would like to recognize the fact that we have been joined 
by a very important member of the committee, Ms. Watson, from 
California. I don't know whether you have an opening statement 
or want us to just proceed with testimonies.
    Mrs. Watson. Please proceed.
    Mrs. Morella. Thank you, Ms. Watson.
    So I am now pleased to call on Peter LaPorte, Director of 
the District of Columbia Emergency Management Agency. Thank you 
for being with us, Mr. LaPorte.
    Mr. LaPorte. Good morning, Chairperson Morella and members 
of the committee. I am going to synchronize my comments here 
and synopsize them.
    Mrs. Morella. We appreciate that.
    Mr. LaPorte. Right after September 11th, Mayor Williams 
convened a Domestic Preparedness Task Force that has evolved 
into a preparedness council focusing on rewriting our District 
response plan. We rewrote our response plan based on the 
emergency support function model of the Federal Government. 
Having the two plans, being able to be synchronized in the same 
language and vocabulary, has served us well; and those 
particular plans match up exactly with Maryland and Virginia in 
the same language.
    Beyond just redoing our District Response Plan, we have 
made a real effort to be part of getting the word out to the 
community. In doing so, we have rewritten again our Family 
Preparedness Guide. Our preparedness guide is found in seven 
different languages as well as Braille. Recently, it's been 
redone again to show the event routes of the city, those 
specific routes that are being coordinated with Maryland and 
Virginia to expedite the commute of people getting out of town. 
We have reached out--over a million copies of this have been 
mailed around the country to other States, other jurisdictions.
    Additionally, we focused a great deal on training. The 
District has invited members of other jurisdictions into our 
training--Arlington, Montgomery, P.G., Alexandria. The training 
includes personal preparedness, the response plan, incident 
command, COOP planning, as well as many others.
    In addition to the 1,500 District and regional personnel 
that have been trained in various emergency preparedness 
response classes, the District is reaching out to the 
community, businesses, and schools. Over 120 businesses have 
been trained. Eleven of the 14 colleges that make up the 
Consortium of Colleges and Universities in the area have gone 
through a great deal of training. Approximately 300 public 
school officials and over 300 community leaders have 
participated in emergency preparedness training. In the month 
of September alone, over 75 courses have been offered to 
support the District's training programs.
    The history of collaboration and training has been well 
evidenced much earlier than this. In March 2002, the District 
participated with the Army Corps of Engineers in a senior 
leadership exercise. On May 29th of this year, we held a 
biological tabletop where over 300 participated--from FEMA and 
CDC and a number of agencies. And, as Chief Gainer has said, 
just last week, on the 13th, we had over 200 people participate 
in a chemical exercise scenario, along with the Council of 
Governments and the Federal partners.
    We also held a summit on the 5th of August where Maryland, 
Virginia, and the District, with Homeland Security, agreed to 
eight action items. Those items committed to information 
sharing and protective actions and moving forward on the EMAC 
and training. Focusing on community education is one of the key 
components of that.
    With this collaboration between the partners, we have 
really made some great strides in this area. But the goal is to 
be the most prepared jurisdiction in the country, and we are 
coming a lot closer to getting there.
    Through the RICCS program that the Council of Governments 
representative will speak to, through the Washington Area 
Warning System where we can touch 67 difference agencies 
throughout the region with the push of one button, our 
preparedness and coordination has gotten a lot better. But we 
have to strive to get even better. The private sector, 
nonprofits, business and industry--it's got to be a 
comprehensive, collaborative approach, including all our 
jurisdictions--local, State, Federal, horizontal and vertical.
    The coordination and challenges we face day in and day out 
are very real. It's been a great deal of work that has gone on 
over the last year in this region. We have come a long way, but 
we still have a long way to go.
    We look forward to the support of this committee. As we 
have seen it in the past, it's been just stalwart. And we look 
forward to working with you and with our partners here at the 
table. Thank you.
    Mrs. Morella. Thank you, Mr. LaPorte. This is a very 
engaging book, looks pretty clear.
    [The prepared statement of Mr. LaPorte follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Morella. I now would like to recognize Donald Keldsen, 
who is the acting Director of the Maryland Emergency Management 
Agency. You demonstrate this truly is regional.
    Mr. Keldsen. Thank you, Madam Chair, and other members.
    The State of Maryland has been actively involved in 
increasing preparedness not only within the State, but with a 
priority for the National Capital Region. As examples, in the 
planning arena we have been key players, active in bioterrorism 
task force planning, completed State planning for handling the 
National Pharmaceutical Stockpile; and will actually be 
exercising elements of that plan in Montgomery County on the 
25th of this month.
    As Peter mentioned, our State Emergency Operations and 
Terrorism Annex mirror the structure of the Federal Response 
Plan and the other regional partners, which is a key indication 
of how they will work together. Additionally, we have been a 
key partner in transportation planning; coordinating routes, 
signal timing and communications.
    We have been actively involved, not only as a State but 
also our jurisdictions, in the Metropolitan Washington Council 
of Governments Task Force and the Regional Coordination Plan. 
We also will be one of the hubs for the Regional Incident 
Communications and Coordination System.
    We've also been actively involved with the Potomac 
Conference, Greater Washington Board of Trade, which is key, 
because the private sector is key, as the chair pointed out, 
not only from an employee standpoint, but much of the 
infrastructure that we need to think of when we look at the 
larger region comes from the private sector. So that 
relationship is key.
    Peter covered the aspects of the summit. One of the things 
that I think is important as we move forward from that summit 
is the active Federal participation by various Federal agencies 
in those commitments to action.
    In the training arena, we continue to collaborate among the 
jurisdictions--D.C., Virginia, and Maryland--on training and on 
exercising, focusing not only on first responder training, but 
as was pointed out, some senior official training and also 
medical, health, and even public works people that need some 
training, because they may come in contact with some of the 
incidents.
    We have participated with the Metropolitan Washington 
Council Of Governments on the Familiarization Workshop, which 
was an effort to educate Federal and other regional partners on 
how we operate, so we can understand and operate better 
together.
    In the realm of exercises, we have had a history of working 
together. Again, it was alluded to, the exercise last Friday 
and that cooperative effort, and also looking forward to a full 
field exercise involving the District, elements within the 
Federal Government from the District, Virginia, and Maryland.
    The final aspect that I would really like to emphasize is, 
aside from the plans themselves, I guess Washington said it 
best. The plan really is nothing; it's the planning that's 
important. And the planning is going on. The relationships that 
are established--and almost everybody here at the panel knows 
each other very well and speaks almost on a weekly basis. We 
know each other better. We will be able to coordinate things. 
Because the plan will not always go according to how it was 
laid out; we'll need to adapt, and we will be able to do that 
because we are working together.
    Thank you.
    Mrs. Morella. Thank you very much, Mr. Keldsen.
    [The prepared statement of Mr. Keldsen follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Morella. I am now pleased to recognize George 
Foresman, the Deputy Assistant to the Governor for the 
Commonwealth of Virginia Preparedness.
    Also, I know that my colleague, Tom Davis, recognized the 
former Lieutenant Governor, John Hager, who is presently 
Assistant to the Governor of Virginia for Community 
Preparedness. And I know you probably will be leaving to go to 
Richmond, from what I have heard. But we are honored to have 
you with us here today, too, sir. Thank you.
    Mr. Foresman.
    Mr. Foresman. Thank you, Madam Chairman, members of the 
subcommittee. The opportunity to appear before this committee 
today I think is extremely important. I am pleased to represent 
the Commonwealth of Virginia, and to discuss the important 
issues of emergency preparedness in the Nation's Capital and in 
this region as a whole.
    The Commonwealth of Virginia and its Governor, Mark Warner, 
take the issue very seriously. In fact, Governor Warner 
established the Office of Commonwealth Preparedness as a 
cabinet-level office when he assumed office this year to 
provide the strategic focus to our preparedness efforts in 
terms of our coordination activities with communities, the 
private sector, our partners across the river in Virginia or in 
Maryland and the District of Columbia, and to ensure that we 
had a strategic focus to our preparedness efforts.
    You noted Lieutenant Governor Hager is with us today.
    Much has occurred since this subcommittee held its hearings 
last October. In the weeks and months following the attack, 
there were those who sought to be critical of our preparedness 
and our response and recovery activities in the National 
Capital Region. This is unfortunate and does a disservice to 
the many men and women who work every day and were working 
prior to September 11th to make the National Capital Region 
safer and more secure.
    I have been involved in public safety as both a first 
responder and at the executive level for nearly 25 years. I 
have never participated in a major crisis event in which there 
was a flawless response in recovery. Could we have done better 
on September 11th and subsequently with the anthrax attacks? 
Absolutely. Did we fail? Simply stated, we did not.
    The structures have been in place for a number of years. 
What we found on September 11th, what we found on the 
subsequent days with the emergence of the anthrax crisis was 
that we needed to do a better job in terms of our execution. I 
think the good news in all of this is the fact that, as you 
noted, Madam Chairwoman, you've brought a large group of folks 
together today. These folks have been working hand in hand, arm 
in arm over the past 12 months to address the issues.
    The recent National Capital Region Summit involving 
Governors Warner and Glendening, Mayor Williams and Governor 
Tom Ridge representing the Federal executive branch underscore 
the importance that leaders are placing toward National Capital 
Region preparedness. This summit and its eight commitments to 
action represent another step in the regional continuum for 
preparedness as they further are galvanizing our forward 
direction toward a higher level of preparedness.
    I would offer, if there is one bright spot in the tragedy 
of September 11th, it is the critical support that leaders at 
all levels of government, in our communities, at the State 
level and across the full breadth of the Federal Government, 
all three branches of the Federal Government and the private 
sector are focusing on preparedness. This level of leadership, 
support, and attention is critical to the role that we have to 
play.
    We cannot escape the simple fact that Washington is unique. 
Our Founding Fathers envisioned a Nation where no one level or 
branch of government possessed supremacy over another. The 
checks and balances that our Founding Fathers provided to us 
make the whole business of coordinating preparedness, response, 
and recovery activities among the plethora of government 
entities in this great region a challenge. This means a 
structure that provides for effective coordination of 
activities among local governments, States, and the District, 
between the three branches of the Federal Government, and in 
fact between both Houses of the U.S. Congress, as well as our 
regional partners and our private sector partners.
    Our structures recognize that--or must recognize, for 
instance, that an attack, as demonstrated on September 11th, 
can occur outside the geographical boundaries of the District 
of Columbia, but nevertheless cause a significant impact on the 
Nation's Capital. There are many stakeholders that must be 
engaged in the decisionmaking process.
    I would offer to you, Madam Chairwoman, that I think that 
we have made substantial progress during the past 12 months if 
for no other reason than that we've raised the awareness on the 
part of officials, citizens, and the media; and we know those 
areas that we need to address corrective action.
    I would like to address one specific issue that you raised. 
You noted the fact that we have 17 jurisdictions in what we 
commonly refer to as the National Capital Region. Our 
experience on September 11th firmly indicated to us that the 
National Capital Region is much broader than 17 jurisdictions. 
It's much broader than the District of Columbia, it's much 
broader than two States, and it's clearly much broader than all 
of our private sector and our regional partners. So I would 
offer to you today that, as we move forward with this continuum 
of preparedness, we are challenged to bring all of the 
stakeholders to the table to ensure that the plans, procedures, 
and processes work the next time, because we all know there 
will be a next time.
    Madam Chairman, you have my written testimony. And thank 
you very much.
    Mrs. Morella. Thank you very much, Mr. Foresman.
    [The prepared statement of Mr. Foresman follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Morella. We will now hear from John R. D'Araujo, Jr., 
Assistant Director of Response and Recovery Directorate of the 
Federal Emergency Management Agency, FEMA.
    Did I pronounce your name correctly?
    Mr. D'Araujo. Yes, ma'am, you did.
    Mrs. Morella. Thank you. You are on.
    Mr. D'Araujo. Good morning, Madam Chairwoman, and members 
of the subcommittee. It is an honor for me to represent 
Director Allbaugh at this very important hearing, and he asked 
that I extend his regrets that he could not be here with you 
this morning.
    For more than 20 years, the Federal Emergency Management 
Agency has been the Nation's lead Federal agency for preparing, 
responding, and recovering from emergencies and disasters, no 
matter what the cause. It is because of these unique 
capabilities that the President has incorporated FEMA as part 
of the proposed Department of Homeland Security that will have 
the principal mission in our government for protecting the 
American people and the security of our country.
    As you heard from my colleagues, even before the events of 
September 11th, FEMA was actively working with the District of 
Columbia and the States and local governments in the National 
Capital Region to help ensure our efforts to respond and manage 
the potentially devastating consequences of a terrorist event 
striking the heart of our government.
    In September of last year, our staff met with the planner 
from the D.C. Emergency Management Agency to develop a strategy 
to encourage involvement in the development of a comprehensive 
emergency response plan for dealing with terrorist incidents 
involving weapons of mass destruction. In the past year, the 
District of Columbia, FEMA, and the National Capital Region 
engaged in a comprehensive and coordinated planning process 
that should serve as a model for the Nation, and I will tell 
you that there has been progress in a number of areas.
    First, the development of comprehensive response plans for 
terrorist incidents for the District and for the region, the 
identification of equipment needed to respond effectively 
including better, more interoperable communication systems, 
training at all levels for responding to terrorist incidents 
and operating in contaminated environments, and the 
establishment of a coordinated exercise program to improve 
response capabilities, practice mutual aid, and evaluate 
response operations.
    A number of actions were taken over the past year to 
improve the Federal Government's readiness to support the 
National Capital Region in the event of another terrorist 
attack. These include the development of a dedicated Emergency 
Response Team for the National Capital Region, the development 
of specialized operating procedures for responding to incidents 
involving weapons of mass destruction, and providing technical 
assistance to the National Capital Region emergency planners, 
prepositioning critical resources, conducting seminars and 
workshops, and coordinating with other partners in the Federal 
response community.
    The National Capital Region Emergency Response Team is one 
of four highly skilled, specialized national teams to respond 
to the challenge of large, complex, catastrophic disaster. This 
team is dedicated to the National Capital Region. Not only are 
they skilled in the aspects of Federal response, but in the 
unique challenges that face response to the Nation's Capital.
    FEMA's National Emergency Response Team contingency plan 
for responding to terrorist incidents involving WMD incidents 
provides the national team with specific operating procedures 
that are common for the unique contingencies and requirements 
of these events. I would suggest that these planning efforts 
might be a model for the rest of the Nation, including the 
terrorism especially prepared training courses that the 
District and the other representatives here have participated 
in.
    Madam Chairman, I have my statement abbreviated, but submit 
it for the record. And in closing, I just want to stress that, 
as has been mentioned earlier, there has been a great deal of 
work done even prior to September 11th--accelerated, of course, 
since then. But I would also add that the process is a 
continuing one, it never ends, and it requires a lot more work.
    Thank you very much. And I stand ready for your questions.
    Mrs. Morella. Thank you very much, Mr. D'Araujo. And we 
certainly--we realize how important it is to have FEMA's 
complete involvement.
    [The prepared statement of Mr. D'Araujo follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Morella. I now recognize the Honorable Bruce Williams, 
who chairs the board of the Washington Metropolitan Council of 
Governments. He is also a council member in Takoma Park, 
Maryland. Thank you.
    Mr. Williams. Thank you. Good morning, Madam Chair, and 
members of the subcommittee.
    As you know, COG is the 501(c)(3) not-for-profit 
association of, now, 18 local governments in the metropolitan 
Washington region, serving Northern Virginia, suburban 
Maryland, and the District of Columbia. COG's served this 
region since 1957.
    First, I want to acknowledge the support of this committee 
in ensuring this region received funds from the Federal budget 
to improve the preparedness of the entire region after the 
terrorist attacks last year. Thank you.
    I am pleased to report that COG and its many partners 
around the region have now completed work on what's likely the 
first-in-the-Nation regional coordination plan. It's, in 
printed form, 450 pages.
    We focused on one paramount goal, ensuring that the 
National Capital Region is prepared and equipped to respond to 
future emergencies or incidents, whether natural or man-made, 
domestic or foreign. The Regional Emergency Coordination Plan 
and its heart, the Regional Incident Communication and 
Coordination System, are new regional tools that enable local, 
State, and Federal Government agencies and community and 
private sector organizations to better understand the 
challenges that we now face and to remain vigilant.
    What makes this plan different, and why are we better off 
today than we were last year?
    First, the plan is a product of extensive and sustained 
engagement by key local, State, and Federal Government 
stakeholders, plus valued representatives of the private and 
community sectors.
    The plan addresses a broad spectrum of potential hazards 
and builds upon and recognizes the essential roles of local 
governments as first responders.
    The plan also recognizes the roles accorded the States for 
emergency management and the unique responsibilities of the 
Federal Government in our region.
    The task force has organized the plan around emergency 
support functions, the key resources that will be needed in the 
event of an emergency or incident. In this regard, the plan 
reflects the approach of this Federal response plan and many 
State and local plans in the region.
    Central to the entire plan is the Regional Incident 
Communication and Coordination System [RICCS].
    Mrs. Morella. Mr. Williams, just move your mic a little 
closer. I can hear you, but I can see people back there 
straining. Thank you. But I could hear you.
    Mr. Williams. Central to the entire plan is the Regional 
Incident Communication and Coordination System [RICCS]. Today, 
an emergency or incident would trigger a RICCS conference call 
among key regional decisionmakers, not some 10 hours after as 
was the case on September 11th following the attack on the 
Pentagon, but likely within 30 minutes, in time to make a 
difference.
    RICCS provides the technology and the procedures governing 
a notification system to alert local, State, and Federal 
officials and important community and private sector 
representatives just minutes after an emergency or an incident. 
Notice will go out via telephone, pager, e-mail, and other 
methods. COG and its partners have already begun to test the 
RICCS, making sure that players know their roles and can 
perform them quickly and effectively in an emergency or an 
incident.
    We have made significant progress in other major areas, 
including plans for the region's health and transportation 
systems during emergencies. As a result, the plan includes a 
draft operational plan for responding to a bioterrorism event. 
And we've worked with the region's major transportation 
authorities to develop a Regional Emergency Evacuation 
Transportation Coordination Annex and a communications process 
for the region's transportation agencies. Last week, the board 
adopted the plan, fulfilling a commitment made 11 months ago. 
We also capped our effort with a proposed MOU, which each of 
our member jurisdictions and partners is expected to sign to 
provide a mechanism to advance the plan.
    Further, partner agencies and organizations are asked to 
incorporate the plan concepts and agreements into their own 
plans, providing a seamless layer of preparedness and 
coordination for the National Capital Region. The plan will be 
subject to frequent and rigorous testing and evaluation.
    Testing of the RICCS notification system began in June. 
This isn't the end of our work, but the beginning of a new 
phase guided by the preparedness and response blueprint we have 
developed for all of our uses. We have provided plan summaries 
to the committee and we also have available the plan on C D-
Rom, and it's also available on our Web site, MWCOG.org.
    That concludes my remarks. Thank you.
    Mrs. Morella. Thank you, Mr. Williams. It is kind of heavy 
lifting there. Thank you very much.
    [The prepared statement of Mr. Williams follows:]





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Morella. And now I would like to recognize George 
Vradenburg, Cochair of the Emergency Preparedness Task Force of 
the Potomac Conference of the Greater Washington Board of 
Trade. And I think Bob Peck is probably around. I didn't see 
him, but I thought he might be you. OK. He is not here. In 
absentia.
    Thank you, Mr. Vradenburg. I look forward to hearing from 
you, sir.
    Mr. Vradenburg. Thank you, Madam Chair, and members of the 
committee.
    The Board of Trade is the only regional Chamber of Commerce 
in the National Capital Area, and represents more than 1,300 of 
the largest businesses and nonprofit organizations in the area, 
employing 40 percent of the area's private sector employees. We 
appreciate your invitation to represent the private sector in 
front of this distinguished committee.
    I have written the testimony and submit it, and I will try 
and be brief in summarizing it.
    The National Capital Region in the District of Columbia is 
perhaps the politically, institutionally most complex region in 
the country, perhaps in the world. As the Nation's Capital, we 
have not only three branches of government, two States, a 
Federal district, 17 local jurisdictions, hundreds of Federal 
and local agencies, 338,000 Federal workers, but there are over 
2.7 million private sector employees in the region who work in 
235,000 businesses. 34,000 of those businesses are based in the 
District itself, but the private sector's responsible for 
owning and operating over 80 percent of the infrastructure in 
the region.
    The Capital also draws 18 million visitors annually. The 
region is home to more than 60 colleges and universities with 
close to a quarter of a million students. The region also has 
more than 20 separate and distinct uniformed police and Federal 
protective service forces representing not only the Federal 
Government, but each of the branches of the Federal Government, 
and various constituent elements of the Federal Government, the 
local 17 jurisdictions.
    I'd like to focus this morning on three specific areas of 
concern about the state of planning in the region. First, I 
would like to focus on whether or not we have adequately 
coordinated the effort on behalf of the whole region.
    All of the emergency management directors testifying here 
today applauded--should be applauded for their efforts to make 
our community safer, but it is our experience that when a lot 
of planning is going on within individual agencies and local 
jurisdictions it is not as well-coordinated across 
institutional boundaries and political jurisdictions as it 
should be. We need not just to make the dots stronger but the 
links stronger. We need not just make the nodes stronger but 
the networks stronger. We have to find some simplifying 
mechanisms for planning in this region to deal with the 
regional institutional complexity.
    We have been participants now for almost a year with the 
Council of Governments' Task Force on Homeland Security. It is 
under the excellent leadership of Carol Schwartz and staffed by 
an extraordinary individual by the name of Michael Rogers and 
an extraordinary staff working for him. It has been broad, 
comprehensive, open and inclusive, but it is by nature limited 
to what the constituent elements of its constitutional force 
will permit it to do.
    It is made up of the representatives of 17 local 
jurisdictions in the States, but in fact it is limited in terms 
of what it can do by what it is delegated by its constituent 
elements to do. They have said up separate functional 
committees. They've invited the private sector into every one 
of those functional committees and were represented and deeply 
integrated into the planning effort there.
    Having said that, we recently had a regional summit at 
which the two Governors and the mayor of D.C. attended; and 
there wasn't reference by any of the three of those to the COG 
process.
    They have now established a separate process working under 
a steering committee at the regional level. To date, it is not 
at all clear how that separate process established by the 
Governors and by the mayor is going to work with the 
extraordinary efforts of the last year of the Council of 
Governments; and I think that is something that this committee 
should focus on and should press for in terms of simplifying 
the regional planning effort and to assure that the table at 
the regional level is as simple but as comprehensive, open and 
inclusive as possible.
    Second, we are concerned that, after a year since the 
attacks, the overwhelming majority of the region's population 
simply does not know what to do in the case of a similar 
emergency. The public is asking--the private sector is asking, 
what's the plan? What's our role in it? What should I do to 
protect my family or business to add strength to the regional 
plan or to protect my kids and my work force?
    Clearly, we have established a color-coded system at the 
national level, but there's no systematic guidance to any of 
the constituent elements within the region, whether they be the 
public sector or the private sector or the public generally as 
to what to do at various levels of that color-coding scheme.
    This question was recently raised on September 10 when the 
Federal Government issued a Code Orange. The Board of Trade 
received several calls from members asking what they should do 
and what we should tell our employees. To answer members' 
questions, we turned to Federal and local agencies for 
guidance. None was received.
    It is our understanding that congressional staffers have 
not been briefed on evacuation or shelter-in-place plans. This 
is also true for the remaining 3.6 million people living in 
this region.
    Individual jurisdictions have taken, I think, pretty 
significant steps in trying to educate their citizenry within 
their particular jurisdictions. I'd particularly cite the 
efforts that Peter LaPorte reported on and what he is doing 
inside the District. But there's no systematic regional 
engagement of the public through the media and exactly what 
their role is and what their responsibilities are and what 
steps they should be taking to protect themselves.
    Our task force at the Board of Trade actually has media 
representatives, and they have offered their assistance to the 
public agencies in that effort.
    Last and finally, we need leadership. We need action. We 
must act as if our lives depended on effective collaborative 
action. In fact, our lives do depend on effective collaborative 
action in this region. We need to be confident enough to test 
our regional plans to assess where they are weak and to 
communicate to the public exactly how to make them stronger.
    Second, we need your support for Senator Sarbanes' 
amendment to create an office for the national capitol region 
under the Secretary of Homeland Security. This amendment has 
broad bipartisan support. We encourage your leadership in 
keeping it in the final legislation as it goes through 
Congress. It is at least an effort to simplify the Federal 
family's participation in regional efforts.
    On the regional side, as I said, we need your leadership to 
assure that the consolidation of both the regional summit 
process established by the Governors and the mayor and the COG 
process occurs and that the table include the public and the 
private sector as well.
    Thank you very much for the opportunity to share our 
concerns with you today on behalf of the private sector and the 
4 million residents of this region. We have made some progress 
in the last year. We have a long way to go.
    This committee should be forceful and aggressive and 
constantly asking the questions, what's the plan, is the public 
aware of what the plan is, are the private sector employers in 
this region aware of what the plan is and what their role is in 
it and how they can make it stronger. This committee is one of 
those simplifying catalytic agents that can force us to do a 
better job on behalf of our work force, our citizenry and on 
behalf of the citizens broadly of this region.
    Thank you very much, Madam Chair.
    Mrs. Morella. Thank you very much, Mr. Vradenberg. 
Appreciate your testimony and the fact that you gave us an 
abbreviated version, posed some good questions.
    But just as you started talking and I mentioned that Mr. 
Peck was not here, he showed up. So I do want to recognize that 
Bob Peck, the President of the Greater Washington Board of 
Trade, is also here with us.
    [The prepared statement of Mr. Vradenberg follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Morella. Now it's my privilege to turn the microphone 
over to Dick White, who's the general manager of the Washington 
Metropolitan Area Transit Authority.
    Mr. White. Good morning, Madam Chairman and members of the 
subcommittee. I want to extend my appreciation to you for 
holding this hearing.
    As the transit provider for the Nation's capital, Metro 
takes its responsibility in homeland security with the 
seriousness it demands. WMATA has been hailed by some as a 
``national security asset'' both for its efficient performance 
on that fateful day of September 11, 2001, and for its 
potential future role in moving people following a regional 
incident or emergency that requires evacuation.
    Because our service area is the National Capital Region, we 
recognize our special role in serving the Federal Government 
and the Federal city. According to recent statistics, nearly 
half of our passengers, 47 percent, during the morning and 
afternoon rush hours on our Metrorail system are Federal 
employees. Of the 83 Metrorail stations, 35 are in close 
proximity to Federal facilities. It is the reality that, given 
our location, we are a potential target in this high-risk area; 
and we must be concerned with protecting Federal employees and 
others that use our system, as well as supporting the Federal 
Government's continuity of operations.
    We are pleased that an independent review of our security 
readiness has suggested that we are at least 3 years ahead of 
most transit systems in terms of security readiness.
    Immediately after September 11th, the Federal Transit 
Administration conducted security readiness assessments for the 
35 largest transit systems. Its key findings for the WMATA 
assessment, which are not information protected under 
confidentiality provisions, included the following: WMATA is 
critical to evacuation of Federal employees and city residents; 
coordination between WMATA and the Federal Government is 
critical during emergency operations; and redundancy and 
flexibility of WMATA operations are critical to handling 
emergencies.
    In your examination of the progress this region has made in 
developing emergency preparedness programs and in coordinating 
intergovernmental activities I'll quickly touch on two areas as 
it pertains to our organization. The first is enhanced security 
and emergency response capability. In this regard we have been 
focusing in three areas: target hardening, equipment and 
training, communications and information sharing.
    The Federal Government has made available $49.1 million to 
help support our efforts in this area. Of that amount, 40 
percent is now currently obligated and more than 90 percent 
will be obligated by the end of this calendar year; and my 
testimony gives great detail on what has been funded and the 
status of their investments in that regard.
    Turning to the second topic, WMATA's intergovernmental 
focus has been oriented toward full participation in the 
Metropolitan Washington Council of Governments' Homeland 
Security Task Force. As described by Mr. Williams in his 
testimony, the COG has led this very complex region through and 
extensive collaboration planning process that covers 
communication, information sharing, and coordination activities 
before, during and after a regional emergency.
    With respect to the transportation component of the 
regional plan, we have worked closely with COG to ensure that 
the many scenarios being analyzed--such as an incident in a 
Metro station--accurately reflect the short- and long-term 
mobility implications for this region. We are particularly 
concerned if there is an incident the results in shutting down 
all or part of the Metrorail system for an extended period of 
time. We are satisfied that COG has made a serious and 
substantial commitment of the resources to the important issues 
of evacuation planning and that it will continue to complete 
the real difficult work that is now just beginning on really 
putting the--on defining the detailed aspects of an evacuation 
plan in order that we can better understand exactly how 
regional mobility will be impacted under the various scenarios.
    We are also continuing our efforts to make sure that any 
Federal agencies or others who are relying on Metro for service 
in an emergency let us know of their special needs. This is the 
only way we can properly assess our service capacity and meet 
our commitment to support the early release or evacuation of 
employees, as well as the continuity of operations of the 
Federal Government. In this regard, there is indeed an urgent 
need to provide financial assistance to support critical 
infrastructure protection and transportation capacity, as was 
suggested by Mr. Davis in his opening remarks.
    While we have had many discussions with the Office of 
Homeland Security and other Federal agencies which have indeed 
been involved in the COG planning process, we remain very 
concerned that there is no central point of contact within the 
Federal Government for this region. Given the unique and 
dominant Federal presence in this region, coordination with the 
vast myriad of Federal Government agencies and entities in this 
region is absolutely critical to success of any emergency 
preparedness efforts. In the National Capital Region, the many 
branches and agencies of the Federal Government necessitate a 
single voice to aid and encourage the significant efforts 
already being undertaken by State, local governments, and 
regional authorities.
    The other area of concern is the highly decentralized 
nature of the executive budget--branch budgeting process with 
respect to homeland security activities. Simply put, there is 
not a clear process or point of contact for making Federal 
funding requests, even when those requests are designed to 
implement the national strategy for combating terrorism in the 
National Capital Region.
    I was very pleased to see in your remarks, Madam Chairman, 
that you are supporting the legislation, Senator Sarbanes' 
legislation. That amendment has passed the Senate. WMATA has 
issued a formal letter of support for this very important 
concept. I certainly hope the rest of your colleagues on this 
committee and the entire host of representatives would see 
their way to supporting this amendment to the legislation. I 
believe it is essential.
    In conclusion, we look forward to continued discussions 
with the region, the administration and the Congress on ways to 
continue to enhance our emergency preparedness response and 
recovery capabilities. We appreciate your leadership in this 
area and look forward to answering your questions.
    Mrs. Morella. Thank you, Mr. White.
    [The prepared statement of Mr. White follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Morella. Now pleased to have the chairman of the 
National Capital Planning Commission testify, the Honorable 
John V. Cogbill, III. Thank you for being here.
    Mr. Cogbill. Thank you, Madam Chair and members of the 
subcommittee. I appreciate this opportunity to report to you on 
the Commission's security design work and our own contributions 
to the emergency planning efforts in the region.
    NCPC has been pleased to participate on the Regional Task 
Force on Homeland Security. We have welcomed the opportunity to 
assist the Metropolitan Council of Governments in applying 
Geographic Information Systems technology to regional security 
issues. In March, we cohosted with COG a forum on GIS security 
applications and have worked with the Council of Governments 
and Fort Belvoir personnel to evaluate GIS applications to 
advanced military tracking, communications and mapping 
technology for civilian emergency response application. In this 
joint effort we have been particularly interested in the effect 
of street closures on emergency operations. It is apparent to 
all that blocked streets seriously impair evacuation procedures 
and circulation of emergency vehicles. As part of the 
Commission's extensive security design work during the past 2 
years, we have consistently called for the reopening of closed 
streets whenever possible.
    Our participation on the Homeland Security Task Force has 
been undertaken in conjunction with the Commission's 
comprehensive urban design and security planning initiative. 
When I last appeared before you in November, the Commission had 
just released its recommendations concerning the impact of 
temporary security measures on the historic urban design of 
Washington's Monumental Core. At that time I conveyed to you 
the Commission's serious concerns about the effect of closed 
streets, hastily erected jersey barriers, concrete planters and 
guard huts on the National Mall. The Commission believes that 
such installations communicate fear and retrenchment and 
undermine the basic premises of a democratic society. Among its 
other recommendations, the NCPC Security Task Force report, 
under the leadership of Dick Friedman, called for the 
preparation of a comprehensive urban design and security plan 
to provide permanent security and streetscape improvements for 
Washington's Federal buildings and historic public spaces. 
Based on these recommendations, the Congress appropriated 
$758,000 as part of the first anti-terrorism supplemental 
measure passed earlier this year for NCPC to prepare such a 
plan. Today I am pleased to report to you that the Commission 
has all but completed our work on this plan.
    The National Capital Urban Design and Security Plan 
proposes a variety of solutions to seamlessly integrate 
building perimeter security while creating a more welcoming and 
beautiful public realm. The Plan demonstrates that good 
security and good urban design can go hand in hand. It is built 
upon the urban design framework that defines prominent 
districts and streets and recognizes that ``one size does not 
fit all'' in security design. It suggests instead design 
solutions tailored to particular precincts and provides much-
needed enhancements to our downtown streets.
    The Urban Design and Security Plan provides perimeter 
security against the threat of bomb-laden vehicles, and offers 
a program of security and urban beautification, and expands the 
palette of attractive street furnishings and landscape 
treatments that can provide curbside security. It presents a 
variety of security designs and solutions, such as ``hardened'' 
street furniture, landscaped planting walls, and sidewalk 
planters.
    The result is far less intrusive, far more hospitable 
streetscapes that provide security while not shouting 
``fortified streets.''
    The future use of Pennsylvania Avenue in front of the White 
House has been an issue of intense debate among Washington 
residents since its closure in 1995. The Commission examined 
closely state-of-the-art security technologies before 
concluding that legitimate security concerns require this 
portion of the Avenue to remain closed to nominal city traffic 
for the foreseeable future. We have studied the traffic impacts 
of the closure, analyzed potential tunnel alternatives, 
assessed a variety of transportation management strategies, and 
are now working with our planning partners to examine the 
feasibility of a Downtown Circulator transit system to ease 
cross-town traffic congestion. We have worked hard to ensure 
that security in the Nation's capital is achieved in a way that 
enhances the economic and cultural vitality of our city.
    The Urban Design and Security Plan offers solutions not 
only for Pennsylvania Avenue in front of the White House but 
for the entire Monumental Core. The National Mall, Independence 
and Constitution Avenues, the Federal Triangle, and 
Pennsylvania Avenue between the White House and the Capitol are 
all historic precincts that today are marred by a jumble of 
makeshift security barriers and forces. Washington is one of 
the most admired capital cities in the world and as good 
stewards, it is our responsibility to preserve its historic 
beauty for future generations of Americans.
    Since its release in July, the draft plan has been 
distributed to each Member of Congress and has been available 
for public comment. The Commission has evaluated the comments 
provided by the Members of Congress, various organizations and 
interested individuals and will move forward hopefully with the 
final adoption of the Plan in October.
    In conclusion, I would like to convey the Commission's deep 
commitment to this urgently needed security design work. Our 
effort has been collaborative in every sense. The Plan is the 
result of all of the stakeholders--Members of Congress, Federal 
and city officials, historic preservationists, business and 
community groups, the professional planning and design 
community, and security agencies--finally coming together to 
make the difficult decisions and find the right balance between 
security and urban design that is worthy of the capital city of 
a great Nation. I know you share our passion for the work that 
lies before us.
    Thank you, Madam Chair. This concludes my formal remarks. 
I'd be happy to answer any questions.
    Mrs. Morella. Thank you very much, Mr. Cogbill.
    [The prepared statement of Mr. Cogbill follows:]





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mrs. Morella. Now last coming up dealing with our Federal 
employees, Scott Hatch, who is the Director of Communications 
for the Office of Personnel Management.
    Mr. Hatch.
    Mr. Hatch. Thank you Madam Chair, members the subcommittee. 
On behalf of OPM Director Kay Coles James, it is on honor to be 
before you today.
    September 11th demonstrated that, while the people of this 
region responded with tireless commitment and compassion, the 
processes, technology, and protocols necessary to respond to a 
sudden emergency or terrorist activity are fundamentally 
different than those plans required for a weather-related 
incident. Until that day, regional communication and 
cooperation occurred in a timely fashion. For example, we could 
all track the snowstorms headed to our area. We knew when the 
protesters were going to be on D.C. streets. Officials had the 
luxury of time, in some instances days, to make a decision.
    September 11th changed that. On that day, critical 
decisions had to be made in minutes, not hours, let alone days.
    OPM, FEMA and the General Services Administration have 
developed what is known as the Federal Emergency Decision and 
Notification Protocol. That ultimately leads to Director James 
making the decision on the operating status of the Federal 
Government, GSA administrator Stephen Perry determining the 
status of Federal facilities and the FEMA Director Joe 
Allbaugh's decision on the initial Federal emergency relief 
response.
    These three individuals are charged with making some of the 
very first Federal decisions in a national emergency and this 
protocol puts them in immediate contact. And I might add that 
the process and technology are tested on a regular basis at the 
staff level and as recently as last week by the three 
directors.
    Once a decision is made, simultaneous calls will go out to 
the White House, the Office of Homeland Security, Metro, Mayor 
Williams' office, Federal agencies, the Capitol Police the 
Council of Governments and their excellent regional incident 
communications network, as well as to authorities in Maryland 
and Virginia.
    Director James' intent and desire, I might add, is to 
provide as much lead time as possible to regional and city 
authorities in advance of an official decision. OPM fully 
understands that the influx of 180,000 Federal employees would 
put a strain on any transportation system, but, at the same 
time, we must have a dose of reality. No protocol, no matter 
how well thought out, can completely control everyone's 
actions. If the September 11th scenario played out again 
tomorrow in exactly the same fashion, there is no guarantee 
that people would not again flood the streets of their own 
volition. But if the same scenario does occur tomorrow, OPM, 
city, and Federal officials would be in a much better position 
to communicate, coordinate and provide protection for our 
citizens. Over 2 million people live and work in this region, 
and we owe it to them to get it right. And I thank you.
    Mrs. Morella. Thank you very much, Mr. Hatch.
    [The prepared statement of Mr. Hatch follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Morella. I do have your Federal Emergency Decision and 
Notification Protocol before me, as do other members of the 
committee. What I'm going to do and ask my colleagues to do is 
to confine our questioning to 5 minutes, and then we can maybe 
have about three rounds. The recorder will be on there in terms 
of timing.
    So I'm going to ask each of you if you could briefly give 
me the status of preparedness in the National Capital Region on 
a scale of 1 to 10. How prepared is the region as a whole as 
well as each locality? So if you give me that number from 1 to 
10. If it is pretty low, I'd like you to tell me briefly what 
it is that you need.
    Let's start off with you, Mr. LaPorte.
    Mr. LaPorte. If I was going to give it a number, I'd give 
it an 8. And it's a pretty high 8, but I think we've come such 
a long way in our connectability. If there's a concern to get 
to 10, part of it is to continue the investment in technology, 
the investment in sustainability of the effort that's been 
going on.
    Mrs. Morella. OK. Very good. Lets continue on. You did very 
well, Mr. LaPorte.
    Mr. Keldsen. I guess I would probably give it a 7 for the 
region. I think there's a lot of investment that's been made. I 
think the basis for real preparedness is the emergency 
management functions funding which has been level for 10 years 
without any increase in the emergency management performance 
grant which is the infrastructure upon which preparedness is 
based.
    Mrs. Morella. Do you have something like this in Maryland? 
Are localities doing that?
    Mr. Keldsen. Yes. Montgomery County, for example, has an 
extensive document for the public.
    Mrs. Morella. Very good. OK. Moving on. Mr. Foresman.
    Mr. Foresman. Madam Chairwoman, the danger is, if I give 
you the wrong number, how does that affect our Federal funding?
    Mrs. Morella. One track mind.
    Mr. Foresman. I think the simple fact is I would give it a 
7 as well. The two areas where clearly we need to do a much 
better job on the integration piece of it is citizen awareness 
and education. Because, ultimately, government and the private 
sector and all levels of government can make decisions, but 
until the citizens play their roles out we're not going to be 
fully prepared. I fundamentally think we're going to have to 
grasp the whole issue of critical infrastructure protection and 
fully engaging our private sector partners. Because we do--the 
response side of it we can do. The critical infrastructure 
protection is going to be a challenge.
    Mrs. Morella. Sounds a little bit like the refrain from Mr. 
Vradenberg, too, as a matter of fact.
    Mr. D'Araujo.
    Mr. D'Araujo. I would tend to concur with----
    Mrs. Morella. A little closer to the microphone.
    Mr. D'Araujo. I would tend to concur with something between 
a 6 or a 7 at this point. I think, although there have been 
great strides, as I mentioned in my comments, the whole notion 
of planning is a never-ending requirement. I mean, as you 
exercise, you adjust; as threat changes, you adjust. We're in 
the process of assessments to determine needed equipment to 
accommodate the responsive recovery business. So I would say 
somewhere between a 6 and a 7.
    Lots of work has been done, no question, but there still 
remains a great deal of work to be done.
    Mrs. Morella. I would be interested if you could give us 
more specificity later in writing to make sure that we continue 
to work together as we begin to update. Great.
    Council member, Chair Williams.
    Mr. Williams. I'd go along with the 7. It's been my 
experience as we've gone through our long process that, as in 
many things, the more questions you ask the more questions 
arise. We've had any number of areas where we feel very proud 
of what we've done, but there are whole areas, whole annexes in 
the plan that are noted where we basically say this area 
remains for extensive work.
    One of them that we call out in there is debris management, 
where we just haven't had the area of specificity that we do 
with some of the other.
    I would, also, in response to Mr. Vradenberg's comment 
earlier about getting word out to the public and making sure 
that they understand this whole process, that we now feel like 
we have something to present to the public; and we're ready to 
do that. We've started taping shows to go out to the various 
public access channels to make sure we share this plan with the 
public. But there's still a lot that remains to be done, and 
our ability to fund that is limited by what we can get from 
other levels of government.
    Mrs. Morella. You also made a good point earlier about the 
Council of Governments. I mean, where is the Council of 
Governments when you have the memorandum of understanding with 
the two Governors and the mayor. That's something, at some 
point we can try to address.
    Mr. Williams. We have worked with that. We met with the 
chief of staff of the Governor in Annapolis on Monday, and 
we're going to meet with folks in Richmond, and we'll continue 
to make sure we coordinate.
    Mrs. Morella. So you're moving along in that regard.
    Mr. Williams. Yes.
    Mrs. Morella. Very good. Because that was a concern that we 
had.
    Mr. Vradenberg. My time is almost running out.
    Mr. Vradenberg. I would rate it between 4 and 5, and I 
would say one of your problems is that don't have a single 
person to ask that question. You don't have a single person who 
you can say, how does it balance security versus openness, 
which was Congresswoman Norton's question at the outset. You 
don't have a single person to do it. You don't have any 
metrics, you don't know what it means to be ready, and you 
don't have any improvements or standards by which you're going 
to be measuring this. And we haven't tested. We haven't tested 
whatever plan we have. So we don't have a metric. We don't have 
a test. We don't have a single place to look. I would say from 
the public's point of view they have no clue. I don't know that 
they would even know how to answer that question.
    Mrs. Morella. Is it good for a first step, that Sarbanes' 
amendment?
    Mr. Vradenberg. It does simplify or at least seeks to 
simplify the Federal family conversation, the COG process 
simplifies the regional conversation, and if the two were 
married you would think there's a single table that was open to 
all.
    Mrs. Morella. Mr. White.
    Mr. White. Madam Chairman, I would rate it about a 6. I 
think there's a tremendous amount of coordination work that has 
been done.
    I would associate myself with the comments that we don't 
have a good regional and public understanding of the work that 
has been done, and that's certainly the next part of the effort 
that needs to be done. Critical infrastructure is a real 
consideration, proper communications, transportation. I'm, of 
course, very concerned about the limitations of our 
transportation network and the limitations of our road and 
transit capacity. It's awful on a good day.
    The third one is I would associate myself with Mr. 
Vradenberg's comments about complete and full Federal 
participation with a single point of contact.
    Mrs. Morella. Great. Good.
    Mr. Cogbill.
    Mr. Cogbill. Yes, ma'am.
    From a fairly rarified planning environment here in the 
District, in the region, I would say before a 7. But the 
problems I continue to see are really on the technical levels, 
GIS, the using of that technology in some of the 
communications. But certainly from our perspective the planning 
is something we've done regularly and we've had good working 
relationships with all of our colleagues and we see this as 
coming along but obviously not there yet.
    Mrs. Morella. Thank you.
    Mr. Hatch.
    Mr. Hatch. I'll restrict my view to what OPM is primarily 
concerned about, and that is the decision of the status of the 
Federal Government in the coordination of the communications. 
In that area, I would have to give it an 8. I would probably 
give it higher, but there's always more room to improve. The 
coordination of the communication effort of all the Federal, 
State and local municipalities and administrators has been 
exceptional over the last year. In our books we have the phone 
number, every conceivable way to reach any key decisionmaker in 
this region. And from that standpoint I feel that we are fairly 
well prepared in the area of communication and notification.
    Mrs. Morella. And do Federal employees know what you've 
been doing?
    Mr. Hatch. Yes, ma'am. We've been working, in addition, 
with the Office of Homeland Security, developing a protocol to 
take the notification and decision process to the chiefs of 
staff of all the Federal agencies and then to begin the 
training within each of the agencies with the security 
personnel.
    Mrs. Morella. OK. I want to thank you all very much.
    I now defer to Ms. Norton for her questioning.
    Ms. Norton. Thank you, Madam Chair. If I may say so, first 
of all, it's interesting to see you all giving yourselves such 
high marks. You know, I'm still a tenured professor of law at 
Georgetown, and I do mark on the curve. And marking on the 
curve, considering from whence you have come, I can understand 
your marks.
    Let me just say for the record that the size of this panel 
I think is the best evidence of the need for the new office. We 
considered, staff tells me, dividing this panel up; and we said 
we can't, because they have to be able to respond to one 
another. In the 12 years on this committee, I've never sat with 
a panel this large where it was absolutely necessary to get the 
kind of information we need.
    If one wants to talk bureaucracy, one has to talk about 
what you all have to do to find a single point of contact. 
That's bureaucracy. The kind of office that is being proposed 
in the Sarbanes' and the Senate amendment, of course, gives you 
that point--it's not a bureaucracy, it's a person there with, 
of course, maybe a few people to help him.
    But when you consider what we have with traffic in this 
town, when we try to figure out what to do to relieve what 
happens on the roads coming in and out, with three independent 
jurisdictions running around trying to figure it out, I should 
think that the experience now of decades of doing that would be 
its own comment on what's needed here.
    I'm going to try to--I hope we can get from the hearing 
what maybe the average citizen would want to know and hasn't 
had an opportunity to find out. So I'm going to ask questions 
that I think might occur to some of them. And let me start with 
Mr. D'Araujo.
    If someone came up to you on the street--and anyone else 
who may have an opinion here I'd invite to respond--and, Mr. 
D'Araujo, I live in Montgomery County and work in D.C. or I 
live in D.C., what's the best way for me to know if an attack 
has occurred? How would you respond, sir?
    Mr. D'Araujo. Well, first of all, I would say that 
typically an attack occurring would certainly be something that 
would be broadcast through emergency channels in the national 
and local news media. I'm sorry. As I was saying, something of 
that nature would, of course, be broadcast through emergency 
channels immediately.
    Ms. Norton. Let me stop you there. I think it's very 
important for people to know there's nothing fancy happening 
here. That the first thing to know is this, that we are all 
wired up in this country and probably in the rest of the world. 
So to relieve people from believing--and I do think you're 
right, Mr. Vradenberg. People don't have a clue. They think 
really something very special has to happen, you have to be 
somebody special, that the way in which this country almost 
everybody finds out anything is through the usual media.
    Because I don't have so much time I want to go on to Metro, 
what to do when it comes to an attack, whether to move at all.
    I hear everybody talking about evacuation. Somebody better 
tell people, stop, look and listen before you run. I have had 
people in D.C. say, hey, look, they're getting everybody else 
out of town. How do we get out of town? Perhaps they may be in 
the safest place in the region.
    Because so many of your answers have had to be abstract and 
I'm used to the case method, let me give you a case. Let me 
give you a case you had, September 11th.
    Now, given September 11th, had you been prepared, should 
you have told people, OPM, whoever thinks they can answer this, 
to get in your cars, if you had--should you have told everybody 
to get on the subway? Could Mr. White have handled that? If 
everybody had left their cars and gotten on the subway--on 
September 11th, knowing now what you know, what should OPM have 
told Federal employees, workers, Federal and nonFederal, to do, 
those in the District of Columbia?
    Mr. Hatch. Delegate, I'll be happy to at least start the 
discussion.
    May I first say you have been gracious through the years by 
appearing on television programs on C-SPAN that I have produced 
and you've allowed to come on the program many times at the 
last minute, so I'm very happy to be here today.
    September 11th, of course, very unusual in our lifetime. 
Hopefully, it will never happen again. By the time----
    Ms. Norton. By the way, I wish people would stop saying--
because the public thinks, and everyone says it, from the 
President on down, ``and I'm here to tell you it will happen 
again.'' Thank you very much. I don't think you have to keep 
reminding people of that. And people believe it's kind of a 
``cover your butt'' statement of officials so that when it 
happens nobody will say we didn't tell you so.
    Meanwhile, what do you think you do to visitors coming to 
the District of Columbia, visitors getting on airplanes? The 
last thing they heard was that somebody told them that it was 
going to happen again. I wonder if they mean it's going to 
happen today when I get on this plane to go to Houston. So 
could we stipulate for the record that it will happen again and 
nobody needs to tell us all and remind us all that it will 
happen again?
    Now, sir.
    Mr. Hatch. You mentioned earlier that the best place to be 
might be remaining where you are, and that was on our minds at 
OPM. OPM Director James----
    Ms. Norton. Should that have happened--I'm trying to see if 
there is a problem-solving approach to an incident. Should that 
have been what people were told on September 11th?
    Mr. Hatch. In my view, yes. By 9:45, streets in Washington, 
DC, were clogged. That was well in advance of a notification at 
10:08 a.m., that Federal employees may leave their buildings. 
They were never instructed that they had to leave, because, as 
you rightly mentioned a moment ago, many times the safest place 
might be or the most convenient place might be where you are. 
In retrospect, the decision would have been called the same way 
today.
    Ms. Norton. Mr. White, people really didn't know whether to 
take their cars if they had ridden them or to crowd your 
trains.
    Mr. White. I think there's a very strong relationship 
between the decision of what people do with the school system 
and the decision of what employers do with employees; and what 
we saw on the 11th was, you know, a major disconnect between 
those two. Human nature being what it is, no matter what OPM 
tells an employee to do, if their schools are releasing, if 
they have school-age children, they're going to go take care of 
them. And that was a major disconnect that drove a lot of chaos 
in the region.
    I think everybody went home the way they came in. So if 
they drove, they drove. If they took Metro, they took Metro.
    But, Ms. Norton, if the strategy is to tell everybody who 
drove in don't--leave your car behind and get on Metro, we 
can't handle it. We absolutely fundamentally cannot handle 
that.
    Ms. Norton. But you heard what Mr. Hatch said. He said 
maybe the thing to say is stay where you are until you hear 
more from us.
    Mr. White. The experts who talk about the issue of 
evacuation always caution the people who talk about it don't 
call it evacuation because this an issue of what do we do with 
the movement of people based upon the conditions that are in 
front of us. In many instances, ``protect in place,'' I think 
is the terminology that is used, is the best strategy; and that 
can only be done if everybody gets instant access to the best 
information they possibly can about what they should do and 
what their choices are. I think that is a fundamental part of 
this evacuation plan. At least the COG is still calling it the 
evacuation plan. That's an important part of it. It's called a 
part of the demand management strategy. It's not always about 
moving people. It's about managing demand, including protect 
employees.
    Ms. Norton. Mr. LaPorte, you wanted to respond.
    Mr. LaPorte. I want to compliment Metro as well as OPM, but 
what we really want to do is to get accurate information to 
those people that are leaving the city. If we could make sure 
if the 14th Street Bridge is closed or if Constitution between 
15th and 17th is closed, that those people who are leaving 
their buildings are empowered with that knowledge so they can 
seek that alternative route. And that's the key, is education 
as we continue to work with our--the Federal employees to 
expedite their commute.
    You really want to be careful, as you said, the evacuation 
word. Because when you talk about evacuation there's 580,000 
people who live in town, evacuation is moving those people who 
commute here in an expedited way home to their respective homes 
in Maryland and Virginia. But for those folks who live in town 
it really is a challenge as where do we go.
    So the idea of sheltering in place is key to understanding 
what protective actions are best to take and in really 
emphasizing that is all part of our personal preparedness, the 
community-based approach, the schools, universities, business, 
industry to educate on a simple collective level of protective 
actions, Maryland, Virginia and the District, accepting some 
common language collectively so when we give out those 
protective action guidelines there's consistentcy among all 
three jurisdictions.
    Ms. Norton. Anyone else have a response?
    Mr. Vradenberg. I'll just make a quick comment, 
Congresswoman Norton, because you have asked a question that 
probably should have been asked, you know, 6 months ago, 9 
months ago and the like; and I'm not sure that your question to 
this panel doesn't reflect one of the problems here is that 
these--all of us still have not exercised the scenario of what 
we would have done differently on September 11th and whether 
we've got the systems in place to have done something 
differently on September 11th.
    You have asked what seems to be a simple, straightforward, 
citizen-oriented question; and I'm not sure that you're getting 
a better answer today. You're getting different answers, but is 
the whole system going to respond in a way that people, if they 
hear from their employer and from the media that they should 
stay in place, will they trust it. Will they, in fact, respond 
in the way you want them to respond?
    The only way we're going to know that is if we in fact go 
through some scenarios and in fact have a trusted system so the 
public knows what the plan is, they trust that somebody is on 
top of the best information they can have, they're getting the 
best communications, their kids are protected in schools, their 
employers know exactly what's going on, and therefore they will 
take the behavior that we would want them to take in order to 
protect the large body of citizenry and work force in this 
region.
    You've asked a critical question. I'm not sure you're 
getting a real good answer from us.
    Ms. Norton. I recognize, you know, we're all involved in 
our own learning curve, but, if I may say so, I believe we 
already have a problem, given the answers. There seems to be a 
consensus that to run may be the worst thing to do. If you run 
out into the bioterrorism, you run out into danger. Or even if 
there's no danger all run out at the same time and you create 
your own danger.
    There seems to be a consensus as we take a case in point, 
yes, a scenario, that the best thing to do is not to evacuate. 
Yet the only thing residents hear is about evacuation plans. I 
can assure you that in this building everybody is going to jump 
up and run.
    Now, so since language is everything, let me suggest--God 
knows I'm not sure what the right words are--that we need to 
wipe the words evacuation plan from the dictionary as far as 
response to terrorism concern. I mean, here's a try, and it's 
not good enough: attack response plan. We've got to now begin 
educating people--we've got to unlearn the evacuation notion. 
Everybody's got that, you all. Boy have they got that. First 
they got it by instinct, and now they've gotten it from all of 
us.
    How do we now tell them that we don't mean for them to run 
until they listen? We need a stop, look and listen plan.
    If I could just ask from this moment on--and this is why we 
need this new office. Because everybody obviously is in his own 
bailiwick trying to figure out what to do, to begin the 
process, to educate the public that the worst thing to do may 
be to evacuate where they happen to be. Stop, look and listen; 
and you will learn what to do.
    From the point of view of Mr. White, it may be that the 
last thing you should do is to have a car out--we may be able 
to sequence people out of here if, in fact, people know all 
right--I mean, literally, it is possible even in a mass society 
to say everybody below D Street can now go home. Everybody 
above that, it would be dangerous to go out.
    People will follow instructions but only if they understand 
they're not in danger if they don't evacuate now.
    Madam Chair, I'm over my time.
    Mrs. Morella. Ms. Watson.
    Ms. Watson. Thank you so much, Madam Chair, for having this 
hearing. And I want to thank the presenters, too. We are 
learning a lot from you.
    I was particularly intrigued by the comments from Mr. 
George Vradenberg, and I think he gave his process the lower 
score.
    In listening to your comments, I saw in front of me what is 
called the Regional Emergency Coordinated Plan, and I also have 
a copy of a Family Preparedness Guide. Can I hear comment not 
only from you, Mr. Vradenberg, but from the other members of 
the panel as to whether these two guides will serve people at a 
time of emergency? I thought they looked pretty good.
    The only thing that I have not heard from anyone on the 
panel, and D.C. is a district that has many waterways, what do 
we do about the waterways, and would they be an escape hatch? 
Maybe somebody can address that.
    Also--and I'm just throwing these thoughts out. And there 
are a couple of people that I wanted to address them.
    The other person was John Cogbill. I am looking at these 
two manuals and I'm saying they look pretty complete but not 
complete enough. I wanted to know if the Homeland Security 
Department that's being proposed is the giant umbrella that 
will coordinate all that you're doing. I heard very clearly Mr. 
Vradenberg said there's no one person you call, no one 
department and so on. Right now, I don't think Homeland 
Security agency is the answer.
    What I would do if anyone cared about my single opinion is 
I would have put another Secretary-level person in the White 
House that would coordinate each one of your departments, 
agencies, or whatever and answer to the President and Congress, 
one person you could call that could tell you what's happening 
here, here, here and here. I don't think coordination is 
adequate.
    I can tell you on September 11th we were right in the 
Capitol. No one knew anything. Not even the media. They were 
asking us. We knew the least. They were yelling to us get out, 
get out, get out. Run, run, run. Run across the grass, run 
across the barrier. I didn't know where to go. I was concerned 
about my staff. I had my chief of staff with me, and I couldn't 
get any information. So as we were walking the streets people 
standing out in front called us in. Come in, Congresswoman. 
There's a phone and a television. I didn't even know what had 
happened. I had not seen it.
    So I started calling around. I called my office in Los 
Angeles to tell them that we were OK, but I don't know where 
the staff is. And they said, well, why don't you call the 
national police; and that's what we did. And they said, we'll 
pick you up right now. When they came to pick me up, it was in 
a K-9 unit. And my chief of staff couldn't even go with me. He 
had to walk.
    So I'm just saying it was chaotic and everybody was 
emotional and there was a lot of shouting and yelling, and we 
said what we need is an evacuation plan. So I say that to say 
how are you coordinated with the Hill and with us? I haven't 
heard that yet.
    So I'd like to hear first back from Mr. Vradenberg and then 
with Mr. Cogbill, because you're heading up this national 
planning commission, on how do we bring the Capitol Hill 
together with the region and the people.
    Mr. Vradenberg. I am a great believer, Ms. Watson, in 
simple communications. And Ms. Norton's notion of a stop, look, 
listen plan is something that will stick in people's head and 
cause them to pause and then to listen before they take action. 
So as good as these are--and I'm not saying they're not high 
quality, well written, and to the extent that they're actually 
read, integrated into people's lives, terrific--my own sense is 
that we need some very simple, convenient, easy-to-use 
mechanisms for the public to understand what to do.
    Stop, look and listen; turn on your TV set. If for some 
reason the broadcast stations aren't operating, turn on your 
radio and listen. And you will hear within 15 minutes of an 
attack the most recent information known to public officials in 
the region and the steps to take and when they can receive 
another update. So the public--excuse me.
    Ms. Watson. Let me intervene here. You're absolutely 
correct. We didn't know. We went into the national police 
headquarters and we heard from the CIA, the FBI, the Capitol 
Police and they didn't tell us any more than we could get on 
CNN.
    Mr. Vradenberg. Well, that is why we have offered--because 
the Private Sector Task Force of the Greater Washington Board 
of Trade does have the local and national media on it, we have 
offered to work with public affairs officials or public 
information officers to develop the kind of very simple set of 
communications steps that we ought to be taking. Clearly, we 
need a clear authoritative voice for the region, not just 
perhaps the President or a Cabinet official on what's happening 
to the Nation, but for the region.
    These are the steps. What's happening to your schools? 
What's happened? What's happening? Are we closing or opening 
the schools? What steps should you take in perhaps different 
sections of the city? What do you do about different languages 
to assure that all non-native English language speakers also 
get a communication? When is your next update?
    If you don't have authoritative information at 9:45, you 
wait until 10:08, the streets are clogged, you're too late 
already. You've got to be out there almost immediately saying 
precisely what Ms. Norton said which I thought was really 
intriguing: Stop, look, listen. Turn on the TV set. The TV for 
some reason is down because the towers are out in the town, 
turn on your radio. If those are out, do some other mechanism. 
But in fact have an authoritative voice very quickly 
establishing what's happening, what steps to take and when the 
next update is. So people will wait 15 minutes or half an hour 
for the next update.
    Ms. Watson. Do we need a 911 for a September 11th type 
event?
    Mr. Vradenberg. I'm afraid the communications system may be 
clogged because it's built for only a certain percentage of 
people using it at a point in time. But we do have a wide 
variety now of communications mechanisms. We have, obviously, 
TV, cable and broadcast. We have radio. We also have the 
Internet. We have wireless.
    Ms. Watson. They can't speak back to you. They can't speak 
back to you.
    Mr. Vradenberg. Some can; some can't. So if we integrate 
our communications to the public so that you can go on your 
local TV set to stop, look and listen for more details, go to 
Internet site A or call a particular number--but you'd have to, 
I think, begin to think through how you could have different 
communications at a point in time so that, in fact, you didn't 
clog your system. Because then no one would hear it. But if in 
fact it was just stop, look and listen, update in one-half 
hour, do not move for one-half hour, then you would have some 
mechanism by which the public could understand and not take the 
most immediate intuitive reaction, which is to run.
    Ms. Watson. I don't know if the Internet will serve all 
people, particularly, Ms. Norton, in your district. There are 
too few people that have access to computers and all.
    What I am latching onto, something you said, a very simple 
way--and, as I said, if we could get two-way communication with 
a human being, you know, on the other end--I hate these numbers 
that you call, you keep getting a recording and you got to go 
through a list of 10 things and you're not sure if you push a 
button you're going to get the right area you want; and I don't 
know if we have that kind of time.
    So I wasn't just being flippant when I said a 911 number 
for a September 11th situation. I was thinking, because I've 
heard several of you say if we had one point that we could 
communicate with, maybe we could get a clear message, I could 
ask you a question. I have 10 people, and I have one car. Can I 
call a taxi or is there a van that can pick us up and move to 
us a safer ground. This is something--the coordination is what 
really bothers me. Because we've experienced an uncoordinated 
kind of response.
    So, you know, you might not have the answers but think 
about the question.
    Mr. Vradenberg. Ms. Watson, you do highlight the value of a 
lot of pre-event thinking about the subject so that we don't 
think about this on the moment of the attack. We think about 
this well in advance of this and perhaps organize ourselves by 
blocks, by other organizational elements within this community 
so that everyone is not calling one number but one knows 
precisely what number to call and so that we can get a response 
system that is responsive to people in giving them comfort that 
they know what is happening, what they should do to protect 
themselves and their families.
    But this is a lot of planning beforehand. It requires deep 
engagement, I think, of all aspects of the media up front in a 
planning sense so that we know almost intuitively and 
reactively what to do when an attack hits. We know there are 
two things we should do: We should turn on our radio or TV and 
we should call our local block captain. So that you only have a 
couple of things to do. So at that point you can distribute the 
information through those mechanisms.
    Ms. Watson. Something that we have done as politicians that 
has been very effective, we sent out these little stick-ums--
you can stick them on your telephone or refrigerator or 
television--giving emergency numbers.
    I'm sitting here thinking that we need to have a way for 
the people to get questions and not have to sit in front of a 
television set. Because I was on foot, I didn't see a 
television set until I went into someone's home. But I knew 
something was going on. Could we have a line, could we have 
telephone lines dedicated with people, you know, rushing to a 
center getting on those lines, giving the most current 
information? Where do you go?
    We on the freeways in California have these boxes, 
emergency boxes, and you can--if your car stops--and they're 
like every quarter of a mile--you go, you pick it up and 
there's someone on the other side of that line that can answer 
your questions or get you the kind of help you need. You know, 
what do we need?
    You don't need to answer. I'm throwing these questions out. 
Let me go now to Mr. Cogbill.
    Mrs. Morella. The gentlelady's time is expiring.
    Ms. Watson. Can I have one-half a second?
    Mr. Cogbill, about the blockades. I have listened to Ms. 
Norton over the year about the way the city looks. And I know I 
get frustrated coming into the Capitol in the morning, you 
know, with all these barricades. We, too, have to stop, flip 
the hood, all of that, and it's very unseemly. And I know there 
are many, many people that look at the District today and 
really don't want to visit because it looks like an armed camp. 
And I was very compelled by your testimony, Mr. Cogbill, and 
maybe you want to comment on it.
    Mr. Cogbill. Yes, ma'am. I'll try to be very brief.
    First, we do serve a very limited role in the planning 
within the District and the Capitol region. But certainly our 
emphasis has been on reducing the appearance of Washington as a 
fortified city.
    I would take this opportunity, though, to mention a couple 
of other things and some of the positive things that I think 
that I personally experienced on September 11th here in 
Washington. One of those was coming out of the building onto 
the street and finding that every person I encountered made eye 
contact. For the first time in a long time in a large 
metropolitan area I found that people were looking at each 
other, they were communicating with each other, and that was 
something I hadn't experienced for a long time.
    Also, as I was leaving the city with my son, we found 
people on the side of the road who were standing there and 
people stopped to pick them up and take them with them. So the 
people reached out and helped each other during that time. We 
came together better as a Nation on that day than any day than 
I can remember in recent history.
    What has the National Planning Commission done? Well, we 
have looked to the future as much as we can to our Legacy Plan. 
One of the things you mentioned was using our waterways to get 
people around the city, and one of the things that we have 
proposed are water taxies. Now this is not something that will 
happen today or tomorrow, but we need to believe that the 
waterfront needs to be better utilized. We need to know that 
people can move around through this area, using this wonderful 
facility that once was an artery and did move people around; 
and so this is what we have proposed.
    As you may know, the Kennedy Center renovations that 
they're now proposing, having just been funded, are in fact 
part of the same legacy plan. What we're trying to do is look 
ahead. We're looking at improving the transportation links in 
and out of the city.
    As you know, with the water bodies we have, there are 
limited means to get in and out of the city across the bridges. 
These are points that you cannot expand in a crisis. These are 
facilities that are limited in what they can carry. But we also 
believe that by proper planning, by proper transportation 
planning, by improving the ways across the Anacostia, by 
improving the network of transportation facilities and 
improving the public transportation system in the district that 
we can make our contribution to the National Capital Planning 
Commission to the objectives that you have just described.
    Mrs. Morella. Thank you. We've extended the time, as you 
can see, because you all had such great answers and the whole 
issue is so very important.
    I do want to reiterate what I said at the beginning and 
that is that I know I have a number of questions I want to ask, 
I know Ms. Norton does and Ms. Watson. So if we may also submit 
some questions to you, too.
    Mr. LaPorte, I know you were very frustrated there because, 
when the discussion was about call WTOP or 911, you already had 
some of that in your pamphlet here. I notice that.
    But, Mr. Vradenberg, you testified in terms of the 
cooperation between business entities in Montgomery County as 
partners in the early stages of emergency planning and its 
effectiveness. How can we institutionalize this business 
partnership in our region?
    I would also like to ask FEMA, Mr. D'Araujo, to report back 
to this subcommittee--if you could do that by October 10th--on 
how this approach is being incorporated in the regional Federal 
contingency plans.
    Mr. D'Araujo. Be happy to do that.
    Ms. Morella. Anybody want to comment on the question on 
business entities and--yes, Mr. LaPorte.
    Mr. LaPorte. As the District received quite a bit of funds 
from this committee last year, one of the investments was with 
business and industry.
    Because it is a key component of getting those folks 
empowered with the knowledge of our plans but also to develop 
their own plans and how they work. And we've been working with 
the Board of Trade and the Chamber of Commerce to get the word 
out to these trainees and we are sharing that, the curriculum, 
with Maryland and Virginia to make sure it's disseminated even 
further.
    What we're finding is that there's a great deal of interest 
in our plans; but even more importantly, though, is their own 
plans, their own plans for their own employees, the 
responsibilities that businesses want to take upon themselves. 
We're finding a great deal of interest in that. But not just 
the business community; there's a unique interest in the 
churches in the religious community here in town in taking 
advantage of that; there's additional curricula of investing in 
those civic associations who really have roots in our 
neighborhoods, because in many many ways, disasters happen 
locally and response happens locally.
    And in the District, as we get out to the voting community, 
or if we get out to different wards, and we're doing community 
training throughout the wards about our plans and their own 
plans, it's about personal preparedness. And it really does 
start at home, and driving in that important fundamental 
foundation of taking the responsibility on themselves to become 
empowered with the knowledge, but also to share that with--
throughout their civic association.
    With the business community, we found it--an appetite that 
we can't match. They're sold out. They're filling up. We have 
got waiting lists of hundreds of businesses. So as we go 
forward, sustaining this level of preparedness in the National 
Capital region is going to take those additional funds, because 
the commitment to really reach the special communities that we 
have is quite challenging.
    Mrs. Morella. Do you believe that the typical business 
owner knows what to do in the event of a code orange?
    Mr. Laporte. We're finding that the larger companies have 
made that investment. The real challenge is the small and 
medium businesses who really are--their profit levels are such 
that they're working. And until you can put it in a profit-type 
argument and explain to them it's a worthwhile investment--the 
levels of color-codedness have caused some degree of confusion 
because of the change; what did it mean? Here in the National 
Capital region, it certainly took on a heightened alert when 
the Department of Defense took additional action. It 
certainly--everyone asked a lot of questions about the level of 
coordination and what we were looking at. We're continuing to 
work on that. The public education of that is critically 
important. And there are some really good examples of how the 
color-codedness of the preparedness match up with what 
businesses can do, what schools can do, what universities can 
do. And we're working on that throughout our training.
    Mrs. Morella. So we still have a way to go. And I have a 
little bit of time left, so I'm wondering about how the level 
of preparedness is being assessed and does this assessment 
differ on a regional and local basis? So looking at also at 
what standards do you use, national standards, local, I would 
ask anyone who would like to respond to that.
    Mr. Williams, I'd like to give you a chance to make a brief 
comment that you have been trying to make, if you'd like to. If 
it doesn't disrupt the continuity of standards and assessment, 
you may make it.
    Mr. Wilson. If I can do that now, I'd appreciate it. I have 
just been a little frustrated. I think that the conversation 
that we had, starting with the response to Ms. Norton's 
question and continuing with Ms. Watson's question, lost 
point--lost sight of the most important thing that I think is 
an answer to that, that we just didn't get to; that in terms of 
what's different today than on September 11th, what would we do 
differently and how would people get the information that they 
need, how would we react?
    The thing that we have today that we didn't have then is 
the regional incident and communication and coordination 
system. We have a way for the important people who have the 
information for the decisionmakers to get together quickly and 
confer and come out with proper information that is accurate 
that people will need, so that you're always going to have to 
go to a diversity of sources to get the information. There is 
no one simple answer for everybody and there is no one place 
where everybody can go and get their questions answered, 
because it would be overwhelmed immediately. So that system is 
going to put out to the media, to local governments, to 
whoever, it's going to put out the best information possible. 
And I think if we get tied up in thinking that we haven't come 
up with a new mechanism and a way to get that information so 
that people know what to do that's different from September 
11th, we'll have lost sight of a lot of progress.
    Mr. Forseman. Madam Chairman, I'd like to address the whole 
issue of performance management and performance measurement. I 
think--and it's incumbently clear, or abundantly clear to me 
today that we need to do a better job of education, because 
some of the issues that we just spent time talking about--
dialog about, in fact--you know, it really boils down to just 
what Mr. Williams said. Should we have been able to do that 
collaboration? Absolutely. Should we have implemented the 
emergency alert system which is fundamentally the system to get 
the word out to the public? We should have. Did we not use it 
on the 11th? No, we didn't. So that was clearly a failure on 
the part to use existing systems.
    But with regard to the standards issues, I think if you 
look at the national standards for what does an accredited 
emergency management capability look like in a local 
jurisdiction, what does it look like at the State level, what 
should it look like at the regional level, there are national 
standards and we should be seeking to achieve those national 
standards because that is----
    Mrs. Morella. That's the E-map, is that it?
    Mr. Forseman. No, ma'am. Oh, the E-map, yes, ma'am. And it 
seeks to take into account everything from command and control 
to effective utilization of the emergency alert system to 
decision processes for expedited--since we're not going to use 
the term ``evacuation,'' expedited movement of people out of 
the area, to protective acts, to recommendation to stay in 
place. And I think the simple fact is we're going to spend 
millions, if not hundreds of millions of dollars, in this 
region in the next 10 years. And unless we're seeking to obtain 
a measurable end product--and I agree with what George 
Vradenburg said. We've got to make sure that we know what the 
target is, and E-map will provide us the target in terms of the 
local jurisdictions and the State governments. And I think 
we're going to have to build a little bit of a unique E-map 
model from a regional perspective, but that's not in the too-
hard-to-do list.
    Mrs. Morella. Would anyone else want to make any comments 
about the assessment or standards? Yes, Mr. White.
    Mr. White. Madam Chair, I just note that, you know, I guess 
we've talked quite a bit today about the Sarbanes amendment, 
but there is a provision in that does require that the 
assessment be made on an annual basis and report back to the 
Congress. So I think that's a good mechanism.
    I think we can talk about what are the standards that are 
used for assessment. I think the fact is that we need an 
assessment. We all need an assessment. You need an assessment. 
The region needs its own assessment, and there's got to be some 
place for it to be done and some mechanism and some way for it 
to be done, and here's an opportunity that can be done.
    Mrs. Morella. And some standards. I just want a yes or no 
answer. Mr. Keldsen, do you think the Sarbanes amendment is 
good? And Mr. Forseman.
    Mr. Keldsen. I support his comments in reference to 
standards. I think the focus for the National Capital region 
needs to be there. I think the Sarbanes amendment is one way of 
doing that.
    Mr. Forseman. The attributes that the Sarbanes amendment 
would provide in terms of the National Capital region focus I 
think is needed.
    Mrs. Morella. OK, very good. I think there seems to be 
unanimity on that. Thank you. Ms. Norton.
    Ms. Norton. Madam Chair, I know you're trying to hasten the 
end of the hearing. I'm going to ask one more case-method 
question and then I'm going to ask a series of questions of 
specific members and ask for short answers of those questions.
    All right. Mr. White here is the case-method question, and 
I ask it in part because everybody--Metro, if you're talking 
about--remember, the scenario I'm using is the average person 
who lives in this region. OK. Let's say the average person uses 
Metro. And in a real sense, one might be more frightened if one 
were in Metro than if one were in an office building. You will 
recall that this committee had a couple of hearings a couple of 
years ago when people were caught underground in Metro, when 
nobody even thought of September 11th, and communication 
between Metro and those underground was very much flawed. We 
since had hearings, learned that had, of course, been 
straightened out as to that particular situation.
    Nevertheless, let me ask you, if one--if I am in a subway, 
if I am in Metro, what should I know? Who is going to tell me? 
And what instructions have you given to whoever it is that is 
going to tell me if I'm in a train underground when some event 
takes place in the region?
    Mr. White. Well, the issue of how we communicate with our 
customers when they're in the system is certainly something 
that we have worked very hard at trying to enhance our 
capabilities on. You make reference to, you know, some issues 
that we had a couple of summers ago, and we've certainly 
learned from some of those things. We have put all of our 
training operators through a very rigorous program of making 
sure that if our trains are stopped for any unusual amount of 
time, that the train operator gets on the PA system inside, in 
the rail cars, and provides that information to our customers. 
And although I can't sit here today and tell you----
    Ms. Norton. Will the train operator know?
    Mr. White. Yes. The train operator is going to get their 
information from our central control system.
    Ms. Norton. And you have communication state-of-the-art 
technology that'll let them know exactly----
    Mr. White. That's not the problem. Getting the information 
from our control center to our train operator is not the 
problem. It's making sure that human intervention takes place 
where that train operator proactively provides that information 
in a way that's not too nondescript or too generic to have some 
meaning to the customers.
    In addition, we have some other tools that are being put in 
our system. We do have passenger information systems where it 
tells people when the next train's going to arrive. Those signs 
in the system have the capability of being overridden to 
provide emergency information, so if you're on a platform, not 
in a train, but on a platform, waiting for a train to come in, 
there's two techniques. It's the sign in the station and the PA 
system in the station itself. So we have multiple ways of 
communicating to our people when they're in the system what is 
going on and what they should be doing.
    Ms. Norton. Thank you, Mr. White.
    Mr. Cogbill, thank you for the work that the NCPC has done 
to try to get this ugly set of barriers that say don't come to 
that region and certainly don't come to this city, thank you 
for your help in getting the White House to send over an 
amendment to begin the process of funding the plan.
    Let me ask you about the circulator. You have proposed that 
a circulator be able to maneuver downtown, including going 
across Pennsylvania Avenue. How would--how would we be--how 
would you make sure that circulator which goes across 
Pennsylvania Avenue, which you have indicated should not be 
opened, would in fact be secure? Would it be able to pick up 
everybody? How would security be done?
    Mr. Cogbill. That is still in the planning stages. We have 
allowed for that with, if you remember from the Van Valkenburgh 
renderings that were done as part of our plan, one of the 
criteria that we established was for access for a circulator. 
We are currently in the midst of working this out with the 
city, with the BID, with the other business elements within the 
city, to determine what the needs are, how much capacity we're 
going to need, and we're also looking at costing the elements 
of that. This is part also of this appropriation that you just 
mentioned. Some of that money will be allocated to studying 
this particular aspect of it, to go from this very abstract 
theoretical idea of the circulator not just in front of the 
White House but through about four or five other areas within 
the monumental core, and we'll look at that and then come back 
with a clear understanding of what we need to do, and then a 
recommendation for how to fund it.
    Ms. Norton. Is the Secret Service involved in your work?
    Mr. Cogbill. Yes, ma'am.
    Ms. Norton. And the Secret Service was involved in your 
work when you recommended that E street be reopened as well, 
was it not?
    Mr. Cogbill. Yes, ma'am.
    Ms. Norton. Mr. D'Araujo, I was very disappointed when FEMA 
apparently expressed some concern about going into a specific 
location in the District of Columbia, sending, I think quite 
insensitively, a message out--you know, watch out; you 180,000 
or so employees may be in a dangerous situation because even 
FEMA doesn't want to go to where FEMA had already signed off 
ongoing. It was not very pleasant. It was not in my judgment 
professional, and I made the head of FEMA understand just how 
we felt about the way in which that got out to the public.
    My question for you, since you were clear--since FEMA was 
clear it wanted to be in the District of Columbia: Wouldn't 
that be something, FEMA looks like it's too scared to be in the 
District of Columbia, but the rest of you all better stay here. 
My question to you is, have you found a building yet? Have you 
found a site yet that is safe enough for you?
    Mr. D'Araujo. Are you talking about the FEMA headquarters 
situation?
    Ms. Norton. Yes.
    Mr. D'Araujo. As you know, that's been held in abeyance for 
a couple of reasons. One, the site that was being proposed was 
determined not to be suitable from a security standpoint based 
on the current environment that we're in. And No. 2, until the 
homeland security issue is finally settled and how we integrate 
into that, we suspended the--looking at the alternate site.
    Ms. Norton. OK. Mr. D'Araujo, be careful about how you 
communicate. People look to you first and foremost, other 
employees look to you first and foremost for courage.
    Let me ask a couple of questions of Mr. Laporte, finally. 
And these will be my last two questions, Madam Chair. An OPM 
spokesman, perhaps one too far down in the bureaucracy, allowed 
as how D.C. hasn't spent the money that you had been allocated 
by the Congress of the United States. In fact, has the District 
spent the money allocated to it in the 2002 appropriation?
    Mr. Laporte. I can assure you that we have spent--and we 
will account for every dime--have spent the $12.6 million that 
came to the District of Columbia Emergency Management Agency, 
and we are well on meeting all spending targets in the other 
funds that came that have a 2-year life cycle. We're well 
beyond halfway points of expending those funds; in fact, are 
finding plenty of areas where additional needs are becoming 
quite clear, especially of the $12.6 million that ended this 
coming September 30th. And it will be challenging, going 
forward, for the community preparedness business, industries, 
schools, universities, to keep continuing to meet the need that 
the citizens are just clamoring for.
    Ms. Norton. Well, I mean since OPM put this on the record, 
it does seem to me that on the record we ought to clear up, 
that OPM--OMB I am sorry. OPM. Do forgive me. OMB and the 
Congress allocated this money and funds to the District and you 
have in fact met that.
    Finally, I've just got to ask you, Mr. Laporte, and I 
suppose there's a soft spot here for the fire department for 
me, since Lieutenant Richard Holmes entered the D.C. Fire 
Department in 2002, but I tell you when I read in the newspaper 
that pending the renovation of the firehouse at Tenley Circle, 
that the firemen have been put in a place where there's no 
water, no showers, no cooking, no trash pickup, I really have 
to wonder not about whether the District is prepared for 
terrorism, but whether they're prepared to treat people who we 
depend upon in a terrorist attack and on a daily basis, whether 
we are in fact treating those employees as we should. Have you 
got anything to report on that matter which was in the Post 
just this week?
    Mr. Laporte. I read that piece and was a bit dismayed, and 
I know Deputy Mayor Kellems has been addressing that issue and 
at least 20 percent of the funds that came into DCEMA were 
turned around and forwarded to the fire department, especially 
the hazardous material needs. We found after September 11th the 
amount of runs we went through anthrax, the amount of training 
we've given to the fire department but, I think it continues to 
show that it is an area of great need and challenge, but there 
are no braver men and women than the fire and EMS folks in the 
District of Columbia.
    Ms. Norton. Mr. Laporte, you are not of course in charge of 
the fire department. Would you, within 1 week, will you let 
this committee know whether the conditions I've just outlined 
for those firefighters has been improved? Would you carry back 
to the D.C.--to the District, whoever is in charge, so that we 
will know what has been done to erase that situation?
    One question for Mr. Hatch. Mr. Hatch, I was very pleased 
at the kind of simultaneous communication that is going on 
between OPM, GSA, and FEMA on just what to do with employees. 
But there's a lot of confusion here because apparently, on 
their own, agencies can close down their agencies. And I still 
don't know who is in charge. I think it's very good that all 
three of you are communicating before anybody moves; but, OK, 
after you all have communicated, who is in charge of saying 
whether or not the government will close down? And where does 
that leave the agency head who apparently has authority on her 
own to close down or stay open?
    Mr. Hatch. You're absolutely correct that each agency, the 
director of each agency, is autonomous within their own 
building and with their own employees. Of course the government 
wouldn't close down because there was a fire at Commerce. But 
the director of OPM in this instance, now Kay Coles James, is 
the individual that will make the call as to the overall 
operating status of the Federal Government. And that will be 
the recommendation.
    Ms. Norton. Does that mean an individual agency could not 
keep open and could not close--I mean, they have to do what she 
says.
    Mr. Hatch. It is very much like the field commander. If 
there is a director that feels that if there were, for instance 
as you brought up earlier, if there were a radiological device 
right outside, or if they had information that the worst thing 
that could happen would be their employees running out the 
door, then, yes, they of course would take the responsibility 
to do what is necessary to protect their citizens and 
employees.
    Ms. Norton. But only in case of emergency can she act 
independently; she, the agency head?
    Mr. Hatch. Only in the case of a specific emergency, and 
the recommendation will come from OPM; yes, ma'am.
    Ms. Norton. Thank you very much. And thank you, Madam 
Chair.
    Mrs. Morella. Thank you, Ms. Norton. We still have some 
questions. We want to thank you very much for your 7 ranking; 
we want to bring it up to 10 as soon as we can.
    And what I thought was particularly important is bringing 
you all to the table together, and I know you do communicate 
with each other, but I hope this will enhance that 
communication. And I hope that we will be meeting with you 
again soon to get the assessment, the standards, the plan for 
the business community, for the citizenry, for the technology, 
that may be needed. And I hope you will feel free to get any 
information to us that we may not have mentioned and may not 
get to you in questions.
    And so I am going to consider this Subcommittee of the 
District of Columbia now adjourned, and thank each and every 
one of you. You have been great to be here. And thank you for 
the progress that's been made in our emergency preparedness.
    [Whereupon, at 12:27 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   - 

</pre></body></html>
